March 10, 2003
Audit Report No. 03-017


Material Loss Review of the Failure of
the Connecticut Bank of Commerce,
Stamford, Connecticut
                            MATERIAL LOSS REVIEW OF THE FAILURE OF THE
                                 CONNECTICUT BANK OF COMMERCE

                                                       TABLE OF CONTENTS

BACKGROUND..........................................................................................................................1

RESULTS OF AUDIT ...............................................................................................................5

FINDINGS AND RECOMMENDATIONS ..............................................................................7

   WHY THE BANK’S PROBLEMS RESULTED IN A MATERIAL LOSS ......................7
   Corporate Governance .............................................................................................................7
           Board of Directors.........................................................................................................7
           Senior Management ......................................................................................................9
           Internal Audit ................................................................................................................11
           External Audit...............................................................................................................12
   Failure to Diversify the Risk of the Bank’s Loan Portfolio......................................................14
   The Bank Engaged in High-Risk Activities Without Proper Risk Management Processes .....16
   Circumventing and Disregarding Banking Laws and Regulations...........................................17
   Examiner Concerns Were Frequently Disregarded or Not Fully Addressed ...........................19
   Nominee Loan Scheme .............................................................................................................22
   Other Matters ............................................................................................................................24

  ASSESSMENT OF THE FDIC’S SUPERVISION OF THE INSTITUTION ...................25
  Finding A: Supervision and Enforcement ................................................................................26
              Recommendation ...................................................................................................30
   Finding B: CBC’s Application to Purchase MTB Bank..........................................................31
              Recommendations..................................................................................................35
   Finding C: Following Up on Red Flags...................................................................................36
              Recommendation ...................................................................................................40
   Finding D: Implementation of Prompt Corrective Action.......................................................41

 CORPORATION AND STATE OF CONNECTICUT COMMENTS AND OIG
 EVALUATION ..........................................................................................................................43

 APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY.......................................51

 APPENDIX II: MARCH 22, 2000 LOAN SCHEME .............................................................53

 APPENDIX III: CHRONOLOGY OF SIGNIFICANT EVENTS........................................54

 APPENDIX IV: CORPORATION COMMENTS..................................................................60

 APPENDIX V: CONNECTICUT DEPARTMENT OF BANKING RESPONSE ..............72
APPENDIX VI: MANAGEMENT RESPONSES TO RECOMMENDATIONS................74

APPENDIX VII: GLOSSARY..................................................................................................76

APPENDIX VIII: PREVIOUSLY ISSUED MATERIAL LOSS REVIEW REPORTS.....80


TABLES

  Table 1 – Comparison of CBC and MTB Information as of December 31, 1999....................3
  Table 2 – CBC’s Approximate Legal Lending Limit, 1997-2002 ...........................................18
  Table 3 – Comparison of Bank Information Before and After Acquisition .............................23
  Table 4 – FDIC and Connecticut Department of Banking Examinations
            and Supervisory Actions for CBC, 1991-2002 ........................................................26
  Table 5 – Carrying Value of Cargo Planes as a Percent of Equity Capital .............................37

 FIGURE

  Figure 1 – Loan Approval Patterns - January to April 2000.....................................................27
Federal Deposit Insurance Corporation                                                                        Office of Audits
Washington, D.C. 20434                                                                           Office of Inspector General




  DATE:                               March 10, 2003

  MEMORANDUM TO:                      Michael J. Zamorski, Director
                                      Division of Supervision and Consumer Protection



  FROM:                               Russell A. Rau
                                      Assistant Inspector General for Audits

  SUBJECT:                            Material Loss Review of the Failure of the Connecticut Bank of
                                      Commerce, Stamford, Connecticut (Audit Report No. 03-017)


  In accordance with section 38(k) of the Federal Deposit Insurance Act (FDI Act), 12 U.S.C.
  1831o, the Office of Inspector General (OIG) conducted a review of the failure of the
  Connecticut Bank of Commerce (CBC), Stamford, Connecticut. On June 26, 2002, the Banking
  Commissioner of the State of Connecticut declared CBC insolvent, ordered it closed, and
  appointed the Federal Deposit Insurance Corporation (FDIC) as receiver. At the time of failure,
  CBC reported total assets of approximately $379 million. As of December 31, 2002, the FDIC
  estimates that the failure of CBC may ultimately cost the Bank Insurance Fund (BIF)
  $63 million.

  As mandated by the FDI Act, the audit objectives were to: (1) ascertain why the bank’s problems
  resulted in a material loss1 to the insurance fund and (2) assess the FDIC’s supervision of the
  bank, including implementation of the Prompt Corrective Action (PCA)2 requirements of section
  38 of the FDI Act. In this report, we address each of these objectives and discuss our findings as
  part of our analysis of the bank’s failure and the FDIC and State of Connecticut regulators’
  efforts to require CBC’s management to operate the bank in a safe and sound manner.
  Appendix I contains additional information on our objectives, scope, and methodology.


  BACKGROUND

  CBC, formerly known as The Woodbridge Bank and Trust Company, was established in 1964 and
  renamed Amity Bank in 1978. During the 1970s and 1980s, Amity Bank emphasized commercial
  real estate lending. When the Connecticut economy, specifically the real estate sector, began
  1
    A material loss is generally defined by section 38 of the FDI Act as a loss that exceeds $25 million and 2 percent of
  the institution’s total assets at the time the FDIC was appointed receiver.
  2
    See the glossary at the end of this report for an explanation of this and other terms and acronyms used throughout
  this report.
experiencing a severe downturn in the late 1980s, the bank suffered large operating losses and
capital depletion. The FDIC imposed a Cease and Desist (C&D) order in July 1991, that required,
among other things, increased capital, revisions to the loan policy, and a policy addressing the
sufficiency of the loan loss reserve. In August 1992, with the bank on the verge of failure, a private
investor recapitalized the bank and acquired over 80 percent ownership interest by purchasing
common stock in exchange for $5 million in cash. The private investor also became the
Chairman of the Board of Directors (Chairman) of the bank. On January 11, 1993, the bank’s name
was changed from Amity Bank to Connecticut Bank of Commerce.

After the acquisition, the bank continued to experience significant operating losses and capital
depletion due to its deteriorating loan portfolio. The bank received a CAMELS3 “5” rating, the
worst level, at a September 1993 examination and was subsequently placed under a second C&D by
the FDIC in December 1993 because of managerial weaknesses. During 1994, the bank continued
to struggle financially, and the Chairman injected additional capital, almost $9 million, averting
failure once again. At examinations performed in 1994, 1995, and April 1996, the bank continued
to be rated a Composite “5.” During that time the Chairman continued to inject capital into the bank
as needed and by the end of 1996, his total capital investment in the bank was over $17 million,
according to FDIC records. The bank was upgraded to a composite “4” rating at the December
1996 examination, in part, due to the additional capital from the Chairman. Apparent improvement
in the bank’s condition noted in the October 1998 examination resulted in an upgrade in the
composite rating to a “3,” the termination of the two outstanding C&D orders, and the adoption of
an informal Memorandum of Understanding (MOU) between the bank, the FDIC, and the Banking
Commissioner of the State of Connecticut. As part of the MOU, bank management agreed to,
among other things, establish prudent lending limits, devise plans to reduce problem assets,
maintain minimum capital levels, and notify the FDIC’s Regional Director and the Connecticut
Banking Commissioner of any new lines of business under consideration by the bank.

On April 23, 1999, just one month after termination of the C&D orders, the bank entered into a
Purchase and Assumption agreement (subject to regulator approval) with MTB Bank, a New
York state-chartered commercial bank with total assets of approximately $278 million. Under
the terms of the agreement, CBC would purchase all of the traditional banking assets and assume
all of the deposits and certain liabilities of MTB Bank for a purchase price of $20 million. MTB
Bank was headquartered in New York City and specialized in lending to small and mid-sized
businesses domestically and to companies abroad. According to the Purchase and Assumption
application, MTB Bank had banking services that were complementary to CBC in accounts
receivable and asset-based lending. The Purchase and Assumption application noted that “The
melding of these complementary businesses into a single institution will result in a bank with the
financial and managerial resources and capabilities to compete with the large regional and
money center banks in these core banking lines of business.”

Before the Purchase and Assumption transaction, MTB Bank was experiencing problems and
was operating under an MOU entered into on September 16, 1998 with the FDIC. A November
1998 joint (FDIC and State of New York) examination report had rated the bank a CAMELS
“3,” and criticized the bank’s risk management process, asset/liability management, and internal

3
 CAMELS (capital, asset quality, management, earnings, liquidity, and sensitivity to market risk) are factors
assessed by regulators during examinations.


                                                         2
controls. A subsequent joint examination report dated November 19994 noted “the overall
condition of the bank was satisfactory; however, management performance remains fair.” The
bank’s condition had improved since the November 1998 examination, and it was upgraded to a
CAMELS “2” rating, although its management component rating remained a “3.” The report
also noted that “[t]he assessment of management reflects the increase in asset classifications,
weaknesses in credit administration, audit, and funds transfer…Weaknesses in audit include lack
of a written risk assessment for areas that are audited and not completing the annual audit plan.”
The 1999 report also noted that adversely classified assets as a percentage of Tier 1 Capital and
loan loss reserves increased from 10.4 percent in September 1998 to 27.7 percent in September
1999. Examiners were concerned that “although the level is generally considered manageable,
the overall trend in volume and severity warrants a moderate level of concern.” At a meeting
with officials from CBC and MTB Bank in May 1999, Division of Supervision and Consumer
Protection5 (DSC) officials in the Boston Regional Office explained that it would be difficult to
approve the Purchase and Assumption of two “troubled banks;” however, that would not
preclude CBC from submitting an application. On August 4, 1999, CBC filed an application
with the FDIC and the State of Connecticut Department of Banking to acquire MTB Bank.
According to the application, the Chairman had agreed to enter into a subscription agreement
with CBC whereby he would purchase $10 million of common stock and $10 million of
preferred stock, the proceeds of which would be used to consummate the sale agreement. As
shown in Table 1, MTB Bank had almost three times the assets of CBC.

                                                     Table 1
                                    Comparison of CBC and MTB Information
                                            as of December 31, 1999
                                                ($ in thousands)


                                                        CBC               MTB

                           Assets                      $99,521          $277,867

                           Loans                       $72,990          $131,295

                           Deposits                    $90,649          $222,373

                           Equity Capital              $8,172             $28,156
                           Enforcement Actions          MOU               MOU

                          Composite Rating                3                 2
                          Component Ratings          2-3-3-3-2-2       2-2-3-2-2-2
                         Source: Call Reports




4
  According to DSC officials, this report was completed but never issued to the bank because CBC’s proposed
acquisition of MTB Bank had already been approved and therefore MTB Bank was about to go out of existence.
5
  Effective July 1, 2002, the FDIC’s Division of Supervision and Division of Compliance and Consumer Affairs
were merged to form the new Division of Supervision and Consumer Protection (DSC). The DSC promotes the
safety and soundness of FDIC-supervised institutions, protects consumers’ rights, and promotes community
investment initiatives by FDIC-supervised institutions.


                                                       3
Before approving CBC’s application to acquire MTB Bank, the FDIC and the State of Connecticut
conducted a joint examination of CBC beginning in December 1999. That examination showed
continued improvements in capital and asset quality; however, the composite rating remained a “3”
and the MOU remained in place. Because of the improvement in the condition of the bank and the
Chairman’s perceived financial strength, the FDIC and the Connecticut Banking Commissioner
approved CBC’s application to purchase MTB Bank in February 2000. On March 31, 2000, the
bank acquired substantially all of the assets and assumed all of the deposits and certain liabilities
pertaining to the banking operations of MTB Bank. The transaction specifically excluded the
acquisition of assets and assumption of liabilities relating to MTB’s precious metals business. CBC
acquired net assets of $20,989,000 that consisted of $247,389,000 in assets, $214,200,000 in
deposits, and $12,200,000 in other liabilities. The purchase price was $20 million, which
represented a $989,000 discount from book value. In connection with the transaction, the Chairman
of the Board of Directors of CBC purchased $10 million of CBC common stock, and a company he
controlled purchased $10 million of CBC preferred stock. The proceeds from the issuance of the
common and preferred stock were used by CBC to fulfill its contractual obligations under the
Purchase and Assumption agreement with MTB Bank.

Regulators performed a limited on-site “visitation” (limited-scope examination) at the bank during
September 2000, after the acquisition of MTB Bank. During an examination in March 2001, FDIC
and State of Connecticut examiners became suspicious of an unusually high volume of loan activity
that had occurred at the bank in March 2000. After they began investigating the matter, they
discovered that over $20 million of loans funded in the latter part of March 2000 were ultimately
channeled to the bank’s Chairman and used to fund the acquisition of MTB Bank. The irregularities
surrounding these loans coupled with other asset quality problems led to the bank’s closure on June
26, 2002, less than 27 months after it acquired MTB Bank.

On November 22, 2002, the FDIC issued a Notice of Charges seeking to impose civil money
penalties (CMPs) totaling $5.25 million against a group of former officers and directors of CBC.
The Notice of Charges, among other things, alleges that the Chairman of the Board and the bank
president orchestrated certain nominee6 loan schemes, the proceeds of which were used to make
the capital injection through the purchase of common and preferred stock into CBC that
ultimately paid for the acquisition of MTB Bank; refinance nonperforming loans in a nominee
borrower's name; keep nominee loans current or pay them off; and improperly provide funds to
the Chairman and related entities. According to the Notice of Charges, the bank’s directors
approved most of the nominee loans and failed to fulfill their fiduciary responsibilities to CBC.
The FDIC viewed the nominee loan scheme as having had the effect of misleading bank
regulators and CBC depositors as to the true financial condition of CBC, ultimately leading to
CBC's closure.




6
  According to the Department of Justice Criminal Resource Manual, a third-party or "nominee" loan is a loan in the
name of one party that is intended for use by another. A misapplication occurs when a financial institution insider
uses his position to secure a nominee loan, either for himself or for another person, and the insider conceals his own
interest in the loan from the financial institution.



                                                          4
In addition to the CMPs, the FDIC is seeking Orders prohibiting the Chairman and president
from further participation in the banking industry and requiring restitution in the amount of
$34 million. The Connecticut Department of Banking is also pursuing CMPs against the same
parties.


RESULTS OF AUDIT

The CBC failed and resulted in a material loss to the Bank Insurance Fund because of
ineffective corporate governance. The Board of Directors and senior bank management:

•   Disregarded sound underwriting practices by making highly speculative and insider loans;
•   Used complex transactions and questionable asset valuations to mask the true financial
    condition of CBC;
•   Circumvented or disregarded various laws and banking regulations related to safety and
    soundness;
•   Failed to ensure that the bank’s internal audit function was independent, effective, and
    complied with applicable regulations; and
•   Ignored or did not fully implement examiner recommendations and enforcement actions.

Additionally, CBC’s external auditors issued unqualified or “clean” opinions on the bank’s
financial statements that briefly described but did not challenge the presentation of certain
questionable transactions and asset valuations. External auditors rendered unqualified
opinions on CBC’s financial statements every year from 1996 through 2001. However, the
auditors did not always follow up on questionable asset valuations reported in CBC’s financial
statements and Call Reports to regulators that represented a significant portion of CBC’s capital.
As a result, CBC’s capital was overstated every year in its financial statements and regulatory
Call Reports from at least 1997 until the bank failed.

The Chairman of the Board orchestrated loan schemes that were key to the material loss to
the Bank Insurance Fund. A major component of the estimated $63 million loss to the
insurance fund resulted from the Chairman of the Board orchestrating a scheme where the bank
made $20 million in nominee loans to various companies controlled by the Chairman, his family
members, and associates in order to fund the acquisition of MTB Bank. The Chairman later
devised other loan schemes involving poorly underwritten loans that were used to make
payments on the nominee loans and to pay off other non-performing loans. The FDIC estimates
that the $34 million in outstanding balances of loans originated as part of these schemes have
little monetary value.

With respect to the supervision of CBC, FDIC and state examiners conducted annual
examinations, consistently identifying and reporting deficiencies, and taking various formal
and informal enforcement actions. In 2001, examiners discovered unusual loan activity at the
bank and promptly began an investigation that eventually uncovered the nominee loan




                                                5
schemes. However, in retrospect, more aggressive supervisory action and additional scrutiny
of CBC’s application to purchase MTB Bank was warranted in light of CBC’s:

•   risky lending and weak management practices,
•   failure to fully resolve examination findings and comply with enforcement actions, and
•   questionable “satisfactory” CRA rating when the application was pending approval.

FDIC and state examiners conducted annual examinations and/or targeted examinations of CBC
from 1993 until its closure. The examiners repeatedly identified and reported on significant, yet
uncorrected, problems at the bank in resulting examination reports. Examiners also required the
bank to operate under two C&D Orders from 1993 to 1999, an MOU from 1999 until 2001, and
another C&D Order from December 2001 until CBC failed. In February 2000, the FDIC
approved CBC’s application to purchase MTB Bank notwithstanding CBC’s long history of
uncorrected management deficiencies identified in examination findings and enforcement actions
and absent validation of the Chairman’s source of funds for acquiring MTB Bank. Finally, the
1999 Community Reinvestment Act performance evaluation for CBC did not reflect the bank's
actual performance, rather the evaluation was largely based on future projections of the bank’s
performance and the bank’s performance in the context of factors not clearly applicable to the
institution. As a result, the rating may not have been an appropriate one on which to base
approval of the bank's application to acquire MTB Bank.

Finally, the FDIC implemented PCA in accordance with the requirements of section 38 of
the FDI Act; however, PCA was not fully effective due to improper asset valuations that
overstated CBC’s capital for several years. Because CBC masked the true nature of certain
financial transactions, examiners did not determine the actual financial condition of CBC until a
full investigation was performed subsequent to the March 2001 examination. Once the loan
schemes were uncovered, the examiners concluded that bank was critically undercapitalized. As
a result, enforcement actions, including those available under PCA, were not fully effective at
minimizing the loss to the insurance fund.

This report contains five recommendations designed to help improve the bank supervision process
and to promote the safety and soundness of FDIC-regulated institutions.




                                                6
                          FINDINGS AND RECOMMENDATIONS

WHY THE BANK’S PROBLEMS RESULTED IN A MATERIAL LOSS


Corporate Governance

The bank’s Board of Directors7 (or Board) and senior management exhibited a pattern of
mismanagement of the bank and failed to provide an adequate system of corporate governance.8
The Board of Directors’ lack of adequate oversight was a principal cause of the bank’s failure,
and happened in large part because the Chairman dominated the bank’s Board. Mismanagement
of the bank included failing to diversify the risk of the bank’s loan portfolio, engaging in high-
risk activities without proper risk management processes, circumventing or disregarding various
laws and banking regulations, and frequently ignoring examiner recommendations. Adding to
these problems were a weak internal audit function and external audits that did not always follow
up on certain questionable asset valuations that were material to CBC’s financial statements. To
achieve an effective corporate governance environment, all four areas – the Board, senior
management, internal audit, and external audit –must be in place and working cohesively. As
discussed below, this did not occur at CBC.

        Board of Directors

The Board failed to establish an adequate control environment at CBC and to implement
corrective actions that examiners recommended. The FDIC and state examination reports from
1996 through 2001 cited CBC's Board and management for ignoring recommendations regarding
asset quality, credit administration, and risk management. Also, minutes of both the Board and
Board Credit Committee meetings did not detail discussions of the views expressed by each
member in attendance on any item or the record of any vote, even when loans presented for
approval lacked sufficient documentation, were contrary to lending policies, or were affiliated
with the Chairman of the Board. Board minutes indicated that Board members did not actively
question or request details on assets, credit administration, and risks. Because the Board did not
adequately perform its duties, CBC operated in an unsafe and unsound manner that eventually
led to its collapse.

According to the DSC's Manual of Examination Policies, the quality of management is probably
the single most important element in the successful operation of a bank. "Management" includes
both the Directors on the Board, who are elected by the shareholders, and the executive officers,
who are appointed to their positions by the Board.

7
  The FDIC and state examination reports for 1996 through 2002 listed as few as five and as many as eight directors
including the Chairman at CBC. The examinations also noted that the directors other than the Chairman were
independent of the bank.
8
 The Institute of Internal Auditors identifies the board of directors, senior management, internal auditors, and
external auditors as the cornerstones of the foundation on which effective corporate governance must be built (see
Institute of Internal Auditors “Recommendations for Improving Corporate Governance.” Position paper to the
Special Committee of the Board of Directors of the New York Stock Exchange, March 28, 2002).


                                                         7
Examiner guidance contained in DSC Examination Modules addresses various control and
performance standards in evaluating a bank's management. These standards include whether the
bank's Board has established policies to maintain a system that effectively measures and
monitors risk and to implement corrective actions recommended by auditors and supervisory
authorities. To determine whether a bank's risks are adequately identified, measured, monitored,
and controlled, the examiners evaluate whether the Board has:

•    Identified and assessed major risks that influence the success or failure of the bank,
•    Established adequate policies and procedures given the size and complexity of the bank,
•    Implemented adequate controls to ensure adherence to bank policies as well as legal and
     regulatory requirements, and
•    Implemented appropriate systems to monitor the bank's activities.

The Board’s failure to provide adequate oversight of the bank resulted in concentrations of credit
risk, high-risk lending, and a disregard for banking laws and regulations and for examiner
recommendations. (Each area is discussed in detail later in this report.) FDIC and State of
Connecticut examination reports from 1996 through 2001 identified numerous matters requiring
Board attention pertaining to the lending function. These areas included basic tenets of banking
such as risk management, asset quality, loan policies, and loan administration. For example, the
1997 examination report disclosed that the bank had entered into a new lending area, accounts
receivable purchases, “without a formal or informal [loan] policy, or procedure guidelines.” As
of October 1997, without any requisite policies or procedures, the bank’s lending in accounts
receivable purchases had grown to $21.6 million and equaled 259 percent of Tier 1 Capital and
reserves.9 Moreover, examiners found these loans to be “riddled with documentation and
administrative deficiencies, including the lack of financial information on the individual
obligors.” Subsequent examination reports show that CBC’s Board of Directors did not
adequately address these matters. Further, the Board did not address the fact that typically
45 percent of CBC's loans were to borrowers outside the state of Connecticut, including
borrowers in Central and South America and Canada. The bank did not demonstrate the
expertise to monitor these international loans.

Also, with respect to the Board of Directors, examiners repeatedly criticized bank management
regarding the lack of detail contained in the minutes of Board of Directors’ meetings. These
minutes did not adequately document management’s activities or reflect discussion and the
decision-making process. Board minutes were devoid of pertinent details regarding discussions
and information about the bank’s activities. These deficiencies existed even though the bank had
been under a Cease and Desist order that required detailed written minutes of all Board meetings
to be maintained and recorded on a timely basis.

Section 4.1 of DSC's Manual of Examination Policies discusses the importance of detailed Board
minutes. "A director's attendance should be an informed and intelligent one, and the record

9
  Regulators often use a percentage of Tier 1 Capital to identify possible absence of risk diversification within an
institution. At the FDIC, the percentage of Tier 1 Capital used to identify potential absence of risk diversification is
25 percent or more for loans to individuals and 100 percent or more for loans by industry or product line.



                                                           8
should show it. If directors dissent from the majority, they should, for their own protection,
insist upon their negative vote being recorded along with the reasons for their action. …Results
of board deliberations on any matter involving a potential conflict of interest should be noted
clearly in the minutes."

FDIC and state examination reports from 1997 through 2001 consistently recommended that
Board minutes include details as to discussion items and the concerns any director expressed.
For example, examiners wrote in the October 1998 exam, “minutes lack sufficient detail as to
discussions. There were no specifics as to who had concerns and what they were. It is again
recommended [referring to the September 1997 examination report] that the Board minutes be
enhanced to include more details as to discussions on all areas of importance.” In the FDIC
Report of Examination of March 2001, the examiners cited CBC’s Board minutes as not timely
and noted that they “did not adequately reflect the substance or content of Board concerns or
oversight actions.”

We also noted problems in recording the Board’s Credit Committee minutes. At the April 2002
examination, examiners noted, “Reasons for voting against a credit, or for abstaining, recusing, or
exiting the room were not always explained or identified in the minutes... In most cases, substantive
and lengthy discussions regarding the credit proposals were not sufficiently detailed." The
examiners also stated that minutes should document related interests, affiliates, business
associations, interrelated borrowing relationships, and potential conflicts of interest.

An egregious example of Board deficiencies was evidenced by the March 2000 Board meeting
where loans totaling over $20 million were approved by the Board, well above the typical monthly
volume and very substantial in relation to the size of the bank. Most of the loans approved at this
meeting lacked adequate financial analysis and contained inaccurate or incomplete information
about the borrowers. Further, information about the purpose of the loans was vague, typically
describing the purpose as working capital or investments. Also, many of the loans were in
contravention of CBC's loan policy (lacked personal guarantees) and safe and sound banking
practice due to their weak underwriting. Nevertheless, it appears none of the directors questioned
any of these loans or probed deep enough to learn the details or offer any objections. Examiners
later discovered that the proceeds from these loans were used by the Chairman to fund the
acquisition of MTB Bank through his purchase of CBC common and preferred stock with the
proceeds.

           Senior Management

Senior management10 also did not fulfill its responsibilities to operate the bank in a safe and
sound manner, in part, because the Chairman dominated them. Specifically, senior management
continually engaged in hazardous lending, did not ensure proper loan administration procedures,
and did not provide a sufficient Allowance for Loan and Lease Losses (ALLL). These failures
of the bank’s senior management contributed to the collapse of CBC.



10
     Senior management refers to executive officers and excludes directors.



                                                           9
According to Section 4.1 of DSC's Manual of Examination Policies, the primary responsibility of
executive management is implementation of the Board's policies and objectives in the bank's
day-to-day operations. A bank's performance with respect to asset quality and diversification,
capital adequacy, earnings capacity and trends, and liquidity and funds management is, to a very
significant extent, a result of decisions made by the bank's directors and officers. When
significant problems exist in a bank's overall condition, consideration must be given to
management's degree of responsibility. At a minimum, the assessment of management by bank
examiners should include the following considerations:

     1.   Whether or not insider abuse is in evidence;
     2.   Existing management's past record of performance in guiding the bank;
     3.   Whether loan losses and other weaknesses are recognized in a timely manner;
     4.   Past compliance with supervisory agreements, commitments, orders, etc.; and
     5.   Capability of management to develop and implement acceptable plans for problem
          resolution.

According to FDIC and state examination reports from 1996 through 2001, senior management
did not comply with existing policies regarding insider transactions, continually violated laws
and regulations, and disregarded some of the regulators’ concerns. Senior management's failure
to address these concerns led to an increase in the volume of adversely classified loans.
Numerous loans, including insider loans, contained severe underwriting, credit, and collateral
deficiencies. Some of the problems identified by examiners included:

•    Underwriting decisions made based on stale, incomplete, or nonexistent financial statements.
•    High reliance placed on borrower-provided financial projections, some of which had never
     been achieved.
•    Audited or reviewed financial statements not obtained despite Credit Policy requirements.
•    Personal guarantees not obtained.
•    Lack of an analysis and/or appraisal of collateral securing loans.
•    Assignment of leases not obtained.
•    Ownership not well documented in the credit files.
•    Updated personal and corporate financial statements and tax returns not regularly obtained as
     required. For those obtained, the tax returns or personal financial statements were not signed
     or did not include supporting schedules (lack of statement of cash flow and footnotes).
•    Over advances on factoring lines, accounts receivable purchase facilities, or inventory lines
     allowed without appropriate control or monitoring.
•    Violations of laws and regulations pertaining to insider lending and affiliate transactions.

Management also failed to adequately identify and recognize credit risk associated with loans,
leases, and other commitments for the ALLL. According to the FDIC 2002 draft Examination
Summary Report,11 “the integrity of the ALLL calculation is heavily predicated upon the
accuracy of the internal loan grading system. The examination revealed significant
discrepancies between internal loan risk ratings and examiner-assigned classifications. Of the

11
  The 2002 FDIC draft Examination Summary Report was never processed or issued due to the bank’s failure
before the examination was completed.


                                                     10
$98 million in loans adversely classified at this examination, approximately 40% were not
internally criticized by management. These inaccuracies resulted in the underfunded ALLL as
of March 31, 2002." Many of these loans originated in prior periods.

Finally, examiners expressed concerns over the Chairman’s apparent domination and control of
the bank starting in the FDIC Report of Examination as of December 1996. That report stated
“The management of the institution is dominated and controlled by the principal shareholder and
Chairman of the Board.” The report further noted concerns regarding risk tolerance; the
underwriting, approval, monitoring, and collecting of loans to entities that have an affiliation to
the Chairman and/or one of his related interests; and the appropriate role for a principal
shareholder in the day-to-day operation of the institution.


        Internal Audit

CBC’s internal audit function was inadequate. According to FDIC and state examination reports
from 1997 through 2001, the internal audit function lacked independence and effectiveness, and did
not comply with regulations. A strong internal audit function helps to ensure that proper internal
controls, policies, and procedures are continuously practiced.

According to Section 4.2 of the DSC Manual of Examination Policies, a strong internal auditing
function establishes the proper control environment and promotes accuracy and efficiency in the
bank's operations. The basic purpose of internal auditing is the safeguarding of assets and the
prevention and detection of problems before they result in losses. The auditor's role is to help
safeguard the bank's assets by performing tests and procedures establishing the validity and
reliability of operating systems, procedural controls, and resulting records. Auditors must have
complete independence in carrying out the audit program and should report their findings directly to
the bank's board of directors or a designated directors’ audit committee.

CBC’s internal auditors lacked independence: In July 1996, CBC contracted the internal audit
function to its external auditors. According to the FDIC's October 1997 examination report, the
external auditor's independence was impaired because the same audit team conducted both the
external and internal audits. In 1998, the FDIC considered independence between the internal and
external auditing functions restored because separate audit teams within the same firm were
performing the audits.12

According to documentation we reviewed in CBC's files and the March 2001 examination report,
CBC in 1998 appointed an employee who was serving as the Risk Manager as internal auditor.
As an auditor, he audited areas for which he had a role or responsibility in approving procedures
or making management decisions as the risk manager. Again, FDIC examiners noted the internal
audit function lacked independence.



12
  Although not if effect at the time, the Sarbanes-Oxley Act of 2002, Title II--Auditor Independence, Section 201
(g) prohibits a public accounting firm that performs for any issuer any audit to also provide internal audit
outsourcing services to that issuer.



                                                        11
The internal audit function was not effective: The internal audit function was not effective
because it delayed in addressing external audit findings and correcting internal control
weaknesses, took excessive time to develop an internal audit structure, and formulated
inadequate audit plans.

•   According to the March 2001 examination report, several stale and repeat internal audit
    report findings dating back to July 1999 had not been resolved because CBC’s Risk
    Management Policy did not assign responsibility for managing and monitoring risk.

•   The examiner's evaluation of CBC's internal audit function in March 2001 noted several
    deficiencies in the audit risk assessment process, audit report process, and the audit manual.

•   The October 1998 FDIC examination report stated that the scope and coverage of the audit
    plan were inadequate because the scope missed critical internal control checks on insider
    transactions, Regulation O compliance, and compliance with the CBC Conflicts of Interest
    Policy.

•   According to DSC's April 2002 draft Examination Summary Report, “internal audit work
    completed since the previous examination does not adequately address examination
    criticisms with respect to commercial lending, as well as insider and affiliate relationships.”

The internal audit function did not comply with regulations: According to the FDIC October
1997 examination report, CBC was not complying with 12 C.F.R. Part 364, App.A, § IIB,
regarding minimum standards for an internal audit program. These standards require, among
other things, adequate monitoring of the institution's internal control system and verification and
review of management's actions to address material weaknesses. CBC had also violated 12
C.F.R. section 326.8(c)(2) regulations for establishing an internal audit program to ascertain
compliance with the Bank Secrecy Act (BSA), which requires banks to report each cash
transaction that exceeds $10,000 in one day.

CBC’s oversight of the internal audit function did not adequately ensure that management
continuously implemented and practiced sound internal controls, policies, and procedures. The
FDIC and state examination reports from 1997 through 2001 cited several significant internal audit
program deficiencies that required the attention and corrective action of the Audit Committee and
the Board. However, the Board’s oversight of the internal auditing function, through the Audit
Committee, failed to establish the proper control environment, or to promote accuracy and
efficiency in the bank's operations. This was a contributing factor to CBC’s collapse.


       External Audit

External auditors rendered unqualified opinions on CBC’s financial statements every year from
1996 through 2001. However, we found that the external auditors did not always follow up on
questionable asset valuations. For example, questionable valuations regarding CBC's interest in
four cargo planes were not adequately addressed in financial statements from 1997 until CBC
failed. As a result, CBC's capital was overstated every year in its financial statements and


                                                 12
regulatory Call Reports from at least 1997 until CBC failed. The differences in asset valuations led
to inaccurate financial reporting to CBC’s stockholders and to the public.

The Interagency Policy Statement on External Auditing Programs of Banks and Savings
Associations states that accurate financial reporting is essential to an institution's safety and
soundness for numerous reasons. First, accurate financial information enables management to
effectively manage the institution's risks and make sound business decisions. Management provides
data to stockholders, depositors and other funds providers, borrowers, and potential investors on the
company's financial position and results of operations. Such information is critical to effective
market discipline of the institution.13

We reviewed the external auditors' workpapers for the financial statement audits for 2000 and
2001.14 The workpapers contained evidence that the external auditors questioned management
about certain asset valuations and supporting documentation, especially for those loans
pertaining to the Chairman and his associates. However, the workpapers did not indicate
whether or not bank management provided an adequate response to the questions. Also, the
external auditors did not adequately address the valuation of cargo planes carried on CBC’s
books from 1997 until it failed. Based on our review of the external auditors' workpapers, they
questioned certain asset valuations, yet according to their workpapers, they did not pursue the
matters to closure. For example, during the 2000 and 2001 audits, auditors raised a number of
questions to bank management about their ownership interest in, and valuation of, four cargo
planes. (The bank’s interest in these cargo planes is further discussed in the “Following Up on
Red Flags” section of this report.) File documentation at the bank was lacking and the terms of
this transaction were vague. CBC’s ownership interest in these planes was unclear, as apparently
no perfected lien was on file. No onsite appraisal had been performed and the bank obtained
only “desktop” appraisals for these planes. As a result, critical information such as the condition
of the planes, engine age, flight hours, and maintenance records was not considered in the planes'
valuation. Because these planes represented 68 percent of the bank’s equity capital in 1997,
external auditors should have pursued this matter further. DRR officials informed us that these
planes were apparently sold in 2001, and the bank received nothing from the sale. The external
auditors did not discover this sale during their year-end 2001 audit.

The bank valued these planes from $4 million to $5.2 million from 1997 until CBC failed in June
2002. From 1997 through 2001, external auditors attested to the accuracy of the valuation of the
planes. However, the bank’s financial statements did not fairly present the financial condition of
CBC, and regulatory Call Reports were not accurate due to these and other valuations being
overstated. These unreliable financial reports misrepresented CBC's financial position to
regulators, depositors, shareholders and the public.




13
  Interagency Policy Statement on External Auditing Programs of Banks and Savings Associations, The Federal
Financial Institutions Examination Council, September 1999, page 1.
14
  The bank’s external auditor for the 2000 and 2001 financial statement audit was Arthur Andersen, LLP. Prior to
2000 it was BDO Seidman, LLP.


                                                       13
Failure to Diversify the Risk of the Bank’s Loan Portfolio

Analysis of CBC’s loan portfolio from 1996 until it failed in 2002 indicates that management did
not give adequate attention to diversifying risk and, as a result, concentrations of credit risk
occurred in its loan portfolio. The failure to diversify risk, coupled with poor underwriting and
poor loan administration, contributed to the material loss that resulted from the failure of CBC.

Greater regulatory attention is required when asset concentrations exceed 25 percent of Tier 1
Capital. According to section 3.1 of the DSC Manual of Examination Policies, concentrations
are a significantly large volume of economically related assets that an institution has advanced or
committed to one person, entity, or affiliated group. These assets may in the aggregate present a
substantial risk to the safety and soundness of the institution. Adequate diversification allows
the institution to avoid the excessive risks imposed by credit concentrations. It should also be
recognized, however, that factors such as the location of the institution and the economic
environment of its lending area can limit an institution's ability to diversify. Where reasonable
diversification cannot be achieved, the resultant concentration calls for capital levels higher than
the regulatory minimums.

The DSC Manual of Examination Policies further states that concentrations generally are not
inherently bad but do add a dimension of risk, which the management of the institution should
consider when formulating plans and policies. In formulating these policies, management
should, at a minimum, address goals for the institution's portfolio mix and set limits within the
loan and other asset categories. All concentrations should be monitored closely by management
and receive a more in-depth review than the diversified portions of the institution's assets.
Recognizing that concentrations may indicate an absence of risk diversification within the
institution's asset structure, the DSC Manual of Examination Policies requires examiners to
detail in the report concentrations aggregating 25 percent or more of Tier 1 Capital by:

    •   individual borrower;
    •   small, interrelated group of individuals;
    •   single repayment source with normal credit risk or greater; and
    •   individual project.

A review of FDIC and State of Connecticut examination reports from 1996 through 2001
revealed the following:

•   The December 30, 1996 FDIC examination report criticized the bank “for having a
    significant concentration of credit, 253.5% of Tier 1 capital” with one borrower. The
    $13 million in loans to this one borrower represented over 21 percent of the loan portfolio as
    of the examination date. Noting that risk diversification is a tenet of sound banking, the
    examiner stated that the Board needed to review this relationship and establish prudent limits.

•   In the October 20, 1997 FDIC examination report, concentrations of credit were identified
    again and examiners recommended that the bank’s directors review the concentrations and
    adopt a diversification policy. Also, the examiners noted these concentrations posed
    additional types of risk. Three concentrations of credit totaling $27.3 million were


                                                14
    identified, which represented 433 percent of Tier 1 Capital and over 45 percent of the book
    value of the bank’s loan portfolio.

•   The October 26, 1998 State of Connecticut examination report noted “Risk diversification
    remains a concern as five relationships ranging from 30% to 138% of Tier 1 Capital are listed
    in the Concentrations page. The level of concentrations [has] increased from three cited at
    the prior examination.” The report further noted that “Given the weaknesses identified in
    these relationships as well as the increasing number of overall concentrations, the need for
    appropriate guidelines and adequate staffing becomes increasingly important. At a
    minimum, policies should address goals for portfolio mix and limits within the loan and other
    asset categories.”

•   The December 27, 1999 examination report, jointly prepared by the FDIC and State of
    Connecticut, noted “Eight relationships, which in the aggregate, represent 491% of Tier 1
    Capital are listed…within this report.” The report further noted “ The number of
    concentrations has increased from the five noted at the last examination.”

•   The March 5, 2001 examination report jointly prepared by the FDIC and State of Connecticut
    states: “Management is again reminded that risk diversification is a basic tenet of sound
    banking. Seven groupings of loan/asset concentrations, each representing greater than 25%
    of Tier 1 Capital are detailed on the concentrations page. Of concern is that the majority of
    these credits are adversely classified or contain loan administration deficiencies. Given these
    increased risk factors, it is imperative that management monitors these credits closely.”

Despite numerous warnings by FDIC and State of Connecticut examiners, CBC’s management
repeatedly failed to diversify the risk of the bank’s loan portfolio. Of particular concern was the
number of loans to one borrower that exceeded 100 percent of Tier 1 Capital. From 1996 though
to 2001, examiners identified at least three separate instances where loans to one borrower
exceeded over 100 percent of Tier 1 Capital. Moreover, all of these concentrations contained
underwriting and/or other credit deficiencies. Through this concentration of risk, CBC had
positioned itself to possibly fail if just one of these loans had to be charged off. Based on our
review of DRR loan sales and discussions with DRR account officers, the FDIC, as receiver, will
likely realize significantly less than book value when these loans are eventually sold.




                                                15
The Bank Engaged in High-Risk Activities Without Proper Risk Management Processes

A review of examination reports and related records shows that the bank had a history of
engaging in high-risk activities without proper risk management policies and procedures in
place. Also, the bank routinely engaged in out-of-territory lending. In 1999, more than 45
percent of CBC’s loan portfolio involved companies operating outside of the State of
Connecticut and sometimes outside of the United States. According to examiners, some of the
lending by the bank appeared to be more representative of lending by venture capital companies
as opposed to an FDIC-insured bank. This type of lending without a proper risk identification
system is a direct result of the bank’s directors and management failing to fulfill their
responsibilities to run the bank in a safe and sound manner.

In guidance to examiners, the DSC Examination Documentation Modules state that Boards of
Directors should establish adequate lending policies, procedures, and operating strategies.
Inadequate lending policies and procedures may expose banks to greater risk. Bank management
should conduct risk assessments to identify key business risks and should adhere to reasonable
risk-taking practices.

CBC’s Chairman directed the bank to engage in risky out-of-area lending without the benefit of
proper guidelines or documented support for the transactions. Aggressive and uncontrolled
risk-taking by the bank led to an increase in the bank's exposure to risk. Our review of
examination reports indicates that the bank continually assumed high levels of risk in its loan
portfolio without adequate processes to identify, measure, monitor, and control these risks. The
December 1996 FDIC examination report noted that much of the bank’s new commercial
lending was in leases or purchases of receivables, and was out of state. Examiners were
concerned that this type of lending requires “special technical expertise, close monitoring, and
hands-on management.” The report also indicated that the bank was already understaffed in its
commercial loan department. Also, the examination report noted that the loan review process
was almost nonexistent, documentation required as part of loan agreements was not being
received or requested, and financial information to monitor credits was not being obtained.

Subsequent examination reports noted similar deficiencies. The 1999 examination report found
that more than 45 percent of the bank’s loan portfolio was made to companies doing business
outside the state of Connecticut, including in Central and South America and Canada. The bank
did not have policies in place for controlling risk in foreign countries. Also, the examination
report identified that the bank was modifying and restructuring loans without current financial
information. The 2001 examination report, under Matters Requiring Board Attention, noted that
“risk management practices are severely deficient relative to the institution's size, complexity,
and risk profile.” The report further noted that “Sound underwriting standards need to be
adopted and enforced." Based on examination reports, loan underwriting improved prior to, and
deteriorated soon after, the acquisition of MTB Bank.

Weaknesses in risk management were exacerbated after the Purchase and Assumption of MTB
Bank. With over $214 million of additional deposits acquired from MTB Bank, CBC funded
tens of millions of dollars in high-risk lending and speculative ventures dealing with accounts
receivable purchase financing, coal mining and oil exploration, and casino gambling. Many of
these loans were to borrowers out of state and/or out of the country.


                                               16
To illustrate:

•   In November 2000, CBC lent money to a start-up company that operated a gaming facility,
    sports bar, and racetrack in Panama. The company was seeking to expand gambling
    operations in Central and South America. The original loan of $250,000 was amended
    11 times, and by April 2002, the loan amount was in excess of $2.6 million. In addition, the
    company received a second loan from CBC in December 2001 for over $1.1 million. The
    purpose of this loan was related to the acquisition of slot machines for the gambling
    operations. Both loans were based on projected earnings of $23 million and $24 million for
    years 2001 and 2002 respectively, even though the company had lost over $300,000 in both
    1999 and 2000. The guarantor for these loans was also experiencing net losses and collateral
    coverage was lacking. Repayment was solely dependent on the successful operation of an
    unproven company engaged in gambling operations in foreign countries. When the loans
    related to the gambling operation were sold by DRR, the total outstanding book value was
    over $5 million. Due to the poor underwriting and lack of collateral coverage, these loans
    were sold at an FDIC auction for less than $668,000, approximately 13 percent of their book
    value.

Prior to the acquisition of MTB Bank, CBC purchased $1.7 million in foreign currency options
without fully understanding the risks assumed. The 1999 examination report stated that the
volatility of these instruments made them more difficult to value than other more traditional
investments. The uncertainty underlying these investments made them riskier than many other
types of securities. Sound risk management principles would require risk management systems
in place to evaluate the possible impact to earnings from adverse changes in market conditions.
Such risk management systems were not in place at CBC.


Circumventing and Disregarding Banking Laws and Regulations

The bank was cited a number of times for apparent violations of banking laws and regulations at
examinations performed from 1996 through 2001. The most significant one that contributed to
the bank’s failure and material loss pertained to legal lending limits of the State of Connecticut.
CBC had several relationships on its books that appeared to violate legal lending limits.

CBC circumvented Connecticut statutes pertaining to legal lending limits to one borrower by
concentrating a portion of its loan portfolio in accounts receivable purchase agreements. Legal
lending limits are a means to diversify risk by limiting the dollar amount of loans to individual
borrowers. However, CBC interpreted Connecticut banking law pertaining to liabilities to one
obligor in a manner that permitted the financing of poor quality accounts receivable of a single
obligor. Below we discuss how the bank was able to lend money oftentimes far in excess of its
legal lending limit.

Legal lending limits help to protect the safety and soundness of banks by preventing excessive
loans to one person, or to related persons that are financially dependent, and help to promote
diversification of risk. As a state-chartered bank, CBC was subject to legal lending limits under
Connecticut General Statutes Sec. 36a-262, which provides the following:


                                                17
   Except as otherwise provided in this section, the total direct or indirect liabilities of any one
   obligor that are not fully secured, however incurred, to any Connecticut bank, exclusive of
   such bank’s investment in the investment securities of such obligor, shall not exceed at the
   time incurred fifteen per cent of the equity capital and reserves for loan and lease losses of
   such bank.

Based on Call Report information, CBC’s approximate legal lending limit (15 percent of equity
capital plus the loan loss reserve) for the years 1996 through 2002 would have been as follows:
                                             Table 2
                              CBC’s Approximate Legal Lending Limit
                                            1997-2002
                                        ($ in thousands)

                            Year              Lending Limit

                            1997              $1,241
                            1998              $1,366
                            1999              $1,529
                            2000              $5,810
                            2001              $6,099
                            2002              $6,601
                              Source: OIG analysis of Call Reports

Starting in 1997, the bank made a number of loans that appeared to exceed the legal lending
limits of the State of Connecticut. The bank lent millions of dollars for what it termed “accounts
receivable purchase facilities.” The bank asserted that the accounts receivable purchase facilities
were not loans but rather the outright purchase of the borrower’s accounts receivable. By
structuring the deals as purchases, the bank contended that each underlying account receivable
was the de facto borrower and thus only the individual account receivable amount would be
covered by the legal lending limits of the State of Connecticut. From 1997 through 1999, when
its legal lending limit would have been somewhere between $1.24 million and $1.53 million, the
bank lent money to several borrowers for accounts receivable purchases in excess of that
amount, ranging as high as $10 million to one borrower.

We reviewed records that indicated the bank was of the view that the purchase of receivables
was not subject to the limitations contained in section 36a-262 based on a number of factors
including “the documentation and corporate approvals evidence the parties intent, to engage in a
sale of the eligible receivables from the Seller to the Purchaser and not a financing secured by
the receivables.”

Examiners reviewing these transactions determined that these transactions were in-substance
direct loans to the companies rather than accounts receivable purchases. This was based on a
number of factors identified by examiners. Particularly, examiners noted that the initial accounts
receivable as well as monthly individual accounts receivable were not in the bank's files;
therefore, the obligors were not known. Also, there were no documented on-site reviews of the
obligors, or documented reviews of the obligors’ creditworthiness by the bank.


                                                 18
By December 31, 1999, accounts receivable purchases represented approximately 28 percent of
the bank’s total loan and lease portfolio. Several of these transactions were in excess of the
bank’s legal lending limit. According to DRR officials, one of these transactions with a book
value over $6.5 million was sold in October 2002 for approximately $1.75 million, less than 27
percent of its book value.

Another way the bank was able to take advantage of legal lending limits was due to an apparent
loophole in Connecticut banking law pertaining to legal lending limits. Relevant language in the
Connecticut law provides limits on “the total direct or indirect liabilities of any one obligor.”
According to the FDIC and Connecticut banking officials we interviewed, as long as loans are
made to separate legal entities and neither guarantees the obligation of the other, there would be
no violation even though the companies could be interlocked and be using the proceeds for a
common enterprise.

An example we noted at CBC occurred during 2001 and 2002, when CBC lent money to four
different entities related to a coal-mining venture in Montana. These companies appeared to be
interlocked, and there are various transactions between the four all related to reopening a coal
mine in Montana. CBC’s total exposure on this transaction was about $22 million. Its legal
lending limit would have been between $6.1 and $6.6 million (2000 - 2001) at the time these
deals were made. According to FDIC and State of Connecticut banking officials, there is
apparently no requirement under Connecticut law to aggregate or combine loans to different
obligors even though the loans directly benefited one another and the expected source of
repayment was the same for each loan.

We discussed this issue with Connecticut banking officials, and they agreed that there are
loopholes in the law that need to be addressed. According to the Connecticut banking officials,
they are in the early stages of drafting proposed changes to the law.


Examiner Concerns Were Frequently Disregarded or Not Fully Addressed

The Bank’s Board of Directors and senior management frequently disregarded or did not fully
address examiner concerns. These concerns included some basic tenets of banking such as risk
diversification, risk management, loan underwriting, and loan administration. Examination
reports from 1996 through 2001 identified recurring problems at the bank that required attention.
The 1996 examination report disclosed CBC’s overall condition as unsatisfactory due to the
Board and senior management’s slow progress in addressing and resolving long standing asset
quality problems and the resultant drain on earnings. Our review of FDIC and State of
Connecticut examination reports indicates that while bank management took action on some
recommendations, most were not sufficiently addressed, which contributed to the bank’s failure.

Onsite examinations are a significant part of the FDIC's supervisory function. The DSC Manual
of Examination Policies in section 1.1 states that the “examination process can help prevent
problem situations from remaining uncorrected and deteriorating to the point where costly
financial assistance by the FDIC, or even a payoff of depositors, becomes unavoidable.” Further
the manual notes “the examination supplies the supervisor with an understanding of the nature,


                                                19
relative seriousness and ultimate cause of a bank's problems, and thus provides a factual
foundation to soundly base corrective measures, recommendations and instructions. The
examination thus plays a very key role in the supervisory process itself.”

Also, the Manual of Examination Policies notes that “[t]he capability of the board of directors
and management, in their respective roles, to identify, measure, monitor, and control the risks of
an institution’s activities and to ensure a financial institution’s safe, sound, and efficient
operation in compliance with applicable laws and regulations should be reflected in the
management rating.” One of the factors related to the capability and performance of
management and the board of directors is its “Responsiveness to recommendations from auditors
and supervisory authorities.”

Examination reports from 1996 through 2002 cited the following matters for CBC management's
attention:

FDIC Report of Examination - December 30, 1996:

•   Credit Administration--on-going review, monitoring, and management of the commercial
    loan portfolio needed improvement. The loan review process was almost nonexistent;
    documentation required as part of loan agreements was not being received or requested;
    financial information needed to monitor credits was not being obtained.

•   Management--Principal shareholder and Chairman of the Board dominated and controlled
    CBC’s management. This raised issues regarding risk tolerance; loans to entities affiliated
    with the Chairman or one of his related interests; and the appropriate role for the principal
    shareholder in the daily operations of CBC.

FDIC Report of Examination - October 20, 1997:

•   Asset Quality--the volume of adversely classified assets remained excessive and the past due
    ratio escalated to an alarming level.

•   Asset Administration--documentation, analysis support, and monitoring of assets in the
    Accounts Receivable Purchase Facility program was inadequate. Two assets were cited for
    Special Mention. The volume of technical deficiencies in credit files remained high.

•   Management--although management and the Board had taken appropriate steps to correct
    prior deficiencies, substantial weaknesses in other areas were noted. The new deficiencies
    reflected poorly on management's ability to prevent further problems. In addition, the lack of
    a strategic plan and budget for 1998 raised questions regarding management's ability to plan
    and provide critical direction to CBC.

FDIC Report of Examination - October 26, 1998:




                                                20
•   Asset Quality--volume of adversely classified items remained excessive. Efforts to reduce
    this level were hampered by new classifications. The return of CBC to a satisfactory
    condition was dependent on efforts to improve overall asset quality.

•   Concentrations of Credit--constituted over 400 percent of capital, exposing CBC to a high
    degree of diversification risk. Management should have implemented a process to adequately
    identify, measure, and monitor the risks inherent in these types of relationships.

•   Management--CBC was operating without a President. Despite this vacancy, senior
    management took steps toward improving the condition of the institution. However, additional
    efforts were needed to stabilize earnings performance, reduce problem assets, monitor and
    administer credit concentrations, and improve internal routine and controls. Also, two directors
    were noted for having poor attendance at Board meetings.

FDIC and State of Connecticut Department of Banking Report of Examination - December 27,
1999:

•   Asset Quality--while improved, remained a concern. Management implemented procedures
    to strengthen loan administration; however, additional efforts to correct deficiencies were
    necessary.

•   Concentrations of Credit--continued to represent over 400 percent of capital, exposing CBC
    to a high degree of diversification risk.

•   Management--took several appropriate steps to address regulatory concerns. Additional
    efforts to correct deficiencies in the administration of the loan and lease portfolio and
    Accounts Receivable Purchase Facility program were necessary.

FDIC and State of Connecticut Department of Banking Report of Examination - March 5, 2001:

The report noted that recommendations from prior examinations had not been satisfactorily
addressed. The report stated: “loan administration weaknesses that were noted at the past several
examinations still remain outstanding.” Also, the report noted deficiencies from the prior two
examinations pertaining to the loan loss reserve methodology, internal audit function, and review of
the interest rate risk model that had not been fully addressed by management. Further, examiners
had concerns in the following areas:

•   Asset Quality--the volume and severity of items adversely classified increased substantially
    since the previous examination. Adversely classified items were an unacceptable 90 percent of
    Tier 1 Capital and reserves. There was $35 million in assets listed for Special Mention.

•   Credit Administration--numerous loans reviewed during the examination contained severe
    underwriting, credit, and collateral deficiencies. In addition, a substantial number of loan policy
    exceptions were noted. Numerous imprudent lending practices were identified in loans
    associated with insiders. There were numerous discrepancies between management’s internal



                                                  21
    risk ratings and the examiners’ classifications. Also, there were increases in concentrations of
    credit.

•   Management--the Board’s oversight of management was deficient in the loan and compliance
    areas as well as risk management practices.

FDIC draft Examination Summary Report - April 1, 2002:

•   Asset Quality--management and the Board had not appropriately overseen the loan portfolio and
    loan administration. Loan relationships were not properly monitored, warning signs were not
    appropriately researched, and loan officers had not been held accountable for their actions.
    Since the previous examination, management still could not provide meaningful information on
    many of the numerous credit relationships and had not rectified many of the noted deficiencies.

•   Credit Administration and Loan Underwriting--weaknesses remained problematic due to a lack
    of management oversight, lack of an effective credit policy, and lack of an effective risk
    assessment.

•   Management--the Board and management took action on some previous recommendations;
    however, the majority of deficiencies were not addressed. The volume of deficiencies identified
    in the loan portfolio was overwhelming. Loans were not appropriately risk rated, over-advances
    on factoring lines were prevalent, and appropriate ongoing analysis and monitoring of many
    credits was not performed.

It is clear from the above examination comments that CBC’s Board of Directors showed a
pattern of disregard for examiners’ reported concerns and recommendations aimed at ensuring
that CBC operated in a safe and sound manner. The examiners repeatedly reported oversight
deficiencies in loan concentrations, affiliate and insider transactions, asset quality, and credit
administration. Management and the Board’s failure to address the continued deficiencies in
asset quality, problems in credit administration and loan underwriting, year after year, led to
massive loan losses and the depletion of CBC’s capital.


Nominee Loan Scheme

In addition to the above, several key events leading to the failure were associated with the
March 31, 2000 acquisition of MTB Bank. As a condition of the Purchase and Assumption of
MTB Bank, CBC was required by the FDIC to increase capital by at least $20 million. In the
application submitted to the FDIC to acquire MTB Bank and in subsequent meetings with the
FDIC, the Chairman of the Board of Directors of CBC represented to the FDIC that he would
personally inject $20 million into CBC to meet a condition for purchasing MTB Bank. In
actuality, the Chairman orchestrated a scheme where he caused the bank to make approximately
$20 million in nominee loans to various companies he and family members controlled, and
associates during the last week of March 2000 (see Appendix II). The proceeds of these loans
were eventually turned over to the Chairman and then used to fund the injection of capital into


                                                  22
the bank, deceiving regulators into thinking that the capital injection was provided from the
Chairman’s own funds. The Chairman did not disclose to regulators that the proceeds of these
loans would be transferred to him or for his benefit. Most of these loans had severe underwriting
deficiencies, and according to DSC examiners, would not have been approved at a bank with
prudent credit underwriting procedures and risk standards.

In furtherance of the scheme, during June 2000, the Chairman again caused the bank to approve
over $11 million in loans to entities controlled by himself, his children, and/or business
associates. Approximately $5.5 million of these loans were channeled to an entity called
Peachtree Group (Peachtree). The FDIC’s investigation into this matter disclosed that an
apparent business associate of the bank’s Chairman created Peachtree in June 2000 with a total
capital contribution of $10. FDIC examiners discovered that Peachtree ultimately used the
money to purchase various non-performing loans from the bank, giving the appearance that a
third party was buying the loans without financing from the bank. By selling the non-performing
loans to Peachtree prior to June 30, 2000, the bank’s condition appeared materially better on its
June 30, 2000 Call Report than it actually was. FDIC examiners also identified other loans made
between April 2000 and May 2001, the proceeds of which were used to make payments on the
various nominee loans made during March and June 2000. As of November 2002, the FDIC
estimated that the aggregated outstanding balance of these nominee loans is at least $34 million.

By using funds obtained from the bank through nominee loans, the Chairman was able to
circumvent a regulatory requirement to provide a capital injection and misled regulators into
thinking that he used his own funds to ultimately purchase MTB Bank. As a result, the
March 31, 2000 Call Report did not reflect the actual condition of the bank because capital was
in reality overstated by approximately $20 million, given that these nominee loans were
generally not made to creditworthy borrowers. In Table 3, we compare bank information as
reported by CBC in its Call Reports from the calendar quarter preceding the acquisition to bank
information reported in Call Reports after the acquisition on March 31, 2000. In addition, we
show what the bank information would have been without reflecting the $20 million injected as
part of the nominee loan scheme.

                                                   Table 3
                                      Comparison of Bank Information
                                        Before and After Acquisition
                                              ($ in thousands)



                                        Call Report        Call Report    Actual
                                         12/31/99           3/31/2000    3/31/2000
              Assets                     $99,521            $368,377     $348,377

              Loans (net)                 $72,990           $226,485     $206,485

              Equity Capital               $8,172           $29,845       $9,845

              Equity Capital to            8.21%             8.10%        2.83%
              Assets %
               Source: Call Reports



                                                      23
As shown in Table 3 above, when the $20 million “capital infusion” is discounted, the bank was
actually operating with equity capital of only 2.8 percent of assets–well below regulatory
guidelines and woefully insufficient given the risks in CBC’s loan portfolio. Once examiners
determined the effects of the nominee loan scheme and the losses associated with it, the bank
was deemed insolvent and closed by the Connecticut Banking Commissioner.

Other Matters

The FDIC concluded that unsafe and unsound practices by CBC’s Board of Directors continued
right up until the bank failed. On June 23, 2002, in a special Sunday night meeting of the Board
of Directors, the Board approved over $16.8 million of loan extensions, modifications, and new
loans. The following day, the bank made over $12.6 million in wire transfers pertaining to these
loans. These loans lacked supporting documentation and financial analysis, and one extension
was for a nominee loan made during March 2000. The Board breached its responsibilities in
approving these loan activities under circumstances that should have caused the Board to
question the propriety of the extensions and loans.

The FDIC and State of Connecticut Department of Banking had commenced a joint examination
of the bank in April 2002. During the examination, FDIC and state examiners informed the bank
that they planned to meet with the Board of Directors on June 25, 2002. According to the FDIC
Notice of Charges issued on November 22, 2002, the Chairman and president were concerned
that the examination results would show a severe deterioration in the bank's condition since the
March 2001 examination. They also feared examiners would take additional regulatory actions.
One of these actions would be restricting the bank's ability to extend credit. Accordingly, the
Board convened a special Sunday night meeting on June 23, 2002 during which it approved over
$16.8 million in loans and extensions of loans. The Board was given no more than 2 days' prior
notice of the meeting. The Chairman, president, and other five directors conducted the meeting
by telephone and approved the funding of the loans as presented.

The FDIC asserts that the Board approved most of these loans based solely upon oral
presentations. Status Reports and other written loan presentations, when prepared, lacked
information necessary to make an informed credit decision. The loans involved close business
associates of the Chairman and entities he owned or controlled. The most egregious of these
transactions were two new loans totaling $11.5 million to companies with no financial history
and no apparent capacity to repay the loans. The Connecticut Banking Commissioner ordered
the bank closed after being notified of these loans. The FDIC, as receiver, was able to secure the
return of the $11.5 million of funds.




                                                24
ASSESSMENT OF THE FDIC’S SUPERVISION OF THE INSTITUTION


FDIC and State of Connecticut examiners conducted annual examinations of CBC from 1993
until its closure (see Table 4). Examiners repeatedly identified and reported on significant, yet
uncorrected, problems at the bank during that time period. As also shown in Table 4, from 1991
until it failed, CBC operated under various supervisory actions. During the March 2001
examination, the first examination conducted after CBC’s acquisition of MTB Bank, examiners
discovered what appeared to be to be inordinately high loan activity in March 2000. Examiners
conducted follow-up work and in June 2001 began a formal investigation under section 10(c) of
the FDI Act that eventually uncovered the loan scheme used by the Chairman to fund the
purchase of MTB Bank.

Although the FDIC’s supervision of the institution generally identified and assessed the risks
identified at the bank, we identified three areas where supervision could have been more
effective. These areas pertain to: (1) enforcement actions, (2) the approval process for
applications, and (3) following up on red flags.

We also determined that the PCA requirements of section 38 of the FDI Act were not fully
effective due to the nominee loan activity, other questionable practices, and the improper
valuation of bank assets. These problems, once identified, resulted in a precipitous decline in
capital and, therefore, PCA’s effectiveness at minimizing losses to the insurance fund was
limited. Detailed in the pages that follow is our assessment of the FDIC’s supervision of the
institution, including implementation of the PCA provisions of the FDI Act.




                                                25
Finding A: Supervision and Enforcement

From 1993 until the bank closed, safety and soundness examinations of CBC were conducted
every year. Supervisory and enforcement actions were issued to address the deficiencies noted at
examinations. The table below summarizes CBC’s examination history and supervisory actions
from 1991 until it failed.

                                            Table 4
                       FDIC and Connecticut Department of Banking
                  Examinations and Supervisory Actions for CBC, 1991-2002
  Examination Date       CAMEL(S)/Composite     Assets in Millions                  Supervisory Action(s) Taken
      Started                Ratings                                                    by FDIC and State
      12/16/91                5-5-3-5-3/5             $171           Continuation of Cease & Desist Order as of 7/9/91,
     FDIC/State                                                      regarding bank operations
       9/13/93                5-5-4-5-3/5             $140           Section 38-Prompt Corrective Action
        FDIC                                                         Second C&D as of 12-16-93, regarding management
       7/25/94                5-5-3-5-3/5             $105           Section 38-Prompt Corrective Action
        FDIC                                                         Continuation of C&Ds
       9/25/95                5-5-3-5-3/5              $84           Section 38-Prompt Corrective Action
        FDIC                                                         Continuation of C&Ds
       4/15/96                5-5-3-5-3/5              $80           Continuation of C&Ds
        State
      12/30/96                4-4-3-5-2/4              $82           Continuation of C&Ds
        FDIC
      10/20/97               3-4-4-4-3-2/4             $85           Continuation of C&Ds
     FDIC/State
      10/26/98               3-4-3-3-2-2/3             $87           Memorandum of Understanding as of 3/23/99 replaced two
     FDIC/State                                                      C&Ds
       7/12/99                 Visitation              $89           Continuation of Memorandum of Understanding
     FDIC/State               -No Rating
      12/27/99               2-3-3-3-2-2/3            $100           Continuation of Memorandum of Understanding
     FDIC/State
       9/11/00                 Visitation             $341           Continuation of Memorandum of Understanding
     FDIC/State               -No Rating
       3/5/01                3-4-4-3-3-3/4            $397           10(c) Investigation begins in June 2001
     FDIC/State                                                      C&D Order effective 12/10/01
       4/1/02                 Bank closed             $407           PCA Directive dismissing the Chairman and President
     FDIC/State               -No Rating                             Bank closed before examination report issued
Source: FDIC and State of Connecticut Examination Reports and related correspondence.



At the start of the March 2001 examination, FDIC and State of Connecticut examiners became aware
of what appeared to be unusual and irregular activity concerning the volume of loans approved by
the bank in the month of March 2000. As discussed earlier in this report, in March 2000, the bank’s
Board of Directors approved over $20 million in loans when in the prior 2 months, Board-approved
loans averaged less than $5 million per month, as shown below in Figure 1.




                                                             26
                                                Figure 1
                              Loan A pprovalPatterns -January to A pril2000
                                             ($ in m illions)


                       25
                       20
                       15
                       10
                        5
                        0
                            January     February     March        April



The $20 million in loans were funded between March 22, 2000 and March 29, 2000–the week
before the MTB acquisition was consummated. These loans appeared suspicious to examiners
due to the unusually high volume, lack of information available, and poor underwriting. Also,
many of the loans appeared to be connected to the Chairman of the Board. Additionally, the
timing of these loans, just days before the Purchase and Assumption occurred, raised concerns
with examiners. The stated purposes for most of these loans were for permanent working
capital, revolving lines of credit, or unspecified investments. There was no mention in the loan
files as to what examiners later learned: the proceeds from these loans would be used to finance
CBC’s acquisition of MTB Bank. After an extensive investigation, which included substantial
tracing of funds, examiners uncovered the loan scheme used by the Chairman of the Board to
fund the purchase of MTB Bank.

In addition, examiners discovered as a part of their investigation that during June 2000, the bank
approved over $11 million in additional loans to entities controlled by the Chairman, his
children, and/or business associates. Approximately $5.5 million of these loans was ultimately
channeled to an entity called Peachtree Group (Peachtree). The FDIC’s investigation into this
matter disclosed that an apparent business associate of the bank’s Chairman created Peachtree in
June 2000 with a total capital contribution of $10. Examiners discovered that Peachtree used
most of the proceeds to purchase various non-performing loans from the bank, giving the
appearance that a third party was buying the loans without financing from the bank. By selling
the non-performing loans to Peachtree prior to June 30, 2000, the bank’s condition appeared
materially better on its June 30, 2000 Call Report than it actually was. FDIC examiners also
identified other loans made between April 2000 and May 2001, the proceeds of which were used
to make payments on the various nominee loans made during March and June 2000. As of
November 2002, the FDIC estimated that the aggregated outstanding balance of the nominee
loans was at least $34 million. As of December 31, 2002, most of these loans were non-
performing, most were lacking in collateral coverage, and according to DRR officials, offered
little in potential recoveries.



                                                27
Enforcement Actions

The bank was under a C&D Order beginning in 1991 and a second C&D Order took effect in
1993. The C&D Orders were removed by the FDIC in March 1999 and simultaneously replaced
with an MOU as the bank’s condition had apparently improved. The October 1998 FDIC
examination upgraded the bank’s CAMELS rating from a ”4” to “3” largely due to gains in
earnings and increased capital. Also, its Tier 1 Capital was 7.86 percent, which was well above
the minimum 6 percent requirement per the C&D.

The Regional Office comments from the October 1998 examination stated, “the effectiveness of
both the 1991 and 1993 Cease and Desist Orders is considered outdated and unnecessary in view
of compliance to date, as well as the basic soundness now evident.” An MOU was
recommended to address the October 1998 examination findings and require the bank to place
specific limits on concentrations of credit, establish targeted reduction levels of total adversely
classified assets, maintain continuity of management, maintain a minimum 7.5 percent Tier 1
capital level to offset its higher risk profile, maintain adequate reserves for loan losses, curtail
and control consultant costs, maintain tight conflicts of interest policy, and continue to provide
quarterly reports.

The FDIC agreed to remove two C&D enforcement actions in March 1999 even though the bank
was not in full compliance with the actions. The C&D orders were replaced with an informal
MOU despite the fact that the bank remained deficient in its risk management and risk
diversification practices, loan administration, and asset quality. Other specific areas of the C&D
where the bank did not appear to us to be in compliance included:

•   Detailed written Board of Directors meeting minutes with supporting documentation.
•   Sufficient level of reserve for loan losses and sufficient methodology for adequacy of reserve
    for loan losses.
•   Correction of loan technical exceptions such as restructuring loan credits or advancing new
    funds without current financial information.
•   Correction of violations of laws and regulations related to internal audit programs and
    compliance with Bank Secrecy Act requirements.

The DSC Manual of Examination Policy states,

       Banks with composite ratings of "4" or "5" will, by definition, have problems of
       sufficient severity to warrant formal action. Therefore, the policy of the Division of
       Supervision is that it shall take formal action pursuant to Section 8 of the FDI Act against
       all insured State nonmember banks rated "4" or "5," where evidence of unsafe or unsound
       practices is present. Such formal action will normally consist of either a Cease and
       Desist Order under either Section 8(b) or 8(c) or initiation of insurance termination
       proceedings under Section 8(a). Exceptions to the policy may be considered when the
       condition of the bank clearly reflects significant improvement resulting from an effective
       corrective program or where individual circumstances strongly mitigate the
       appropriateness or feasibility of this supervisory tool. For example, acceptable action by


                                                 28
       the State authority might preempt the need for FDIC action, or qualified new
       management might allow the use of an informal memorandum of understanding instead
       of a Cease and Desist Order. Mere belief that bank management has recognized the
       problems and will implement corrective action is not a sufficient basis to preclude action
       if the bank is still deemed to warrant a composite rating of "3," "4" or “5.”

Regarding MOUs, the DSC manual additionally states, as a general rule, and as a minimum, a
Memorandum of Understanding is to be considered for all institutions rated a composite "3."
Use of an MOU, as opposed to more formal action, is particularly appropriate where the
Regional Office believes the problems discussed with management and the board of directors of
the institution have been adequately detailed and the institution, in good faith, will move to
eliminate the problems.

The DSC chose to replace the C&Ds with an MOU even though it had concerns with asset
quality, credit concentrations, and staffing levels. Asset quality was weak. The volume of
adversely classified assets had increased since the previous examination and represented 95
percent of Tier 1 Capital and reserves. Credit concentrations were also higher at 429 percent of
Tier 1 Capital, representing poor risk diversification, and 31 percent of concentrations were
classified as either Substandard or Special Mention. The MOU remained in effect after the
acquisition of MTB Bank.

Moreover, regarding enforcement actions, the March 2001examination resulted in the bank being
downgraded from a CAMELS “3” rating to a CAMELS “4” rating. In December 2001, the
FDIC imposed a new C&D order containing 31 provisions addressing, among other things, credit
underwriting and loan administration weaknesses, inappropriate risk rating of loans, insufficient
capital, and several repeat apparent violations. While the C&D order contained numerous
provisions, it did not necessarily prevent the bank from continuing to make high-risk out-of-
territory loans nor did it place a dollar limit on loans to be extended. As a result, the bank
continued to make risky loans, funding over $17 million of such loans from January through
June 2002, including $13 million just days before CBC failed. While the FDIC was able to
recover $11.5 million of the funded loans in its capacity of receiver, almost $6 million was not
recovered, and the FDIC estimates that most of this money will not be repaid because the
borrowers are not creditworthy and there is a lack of collateral.

While we have concerns about the lifting of the C&D orders in 1999, we are not making any
formal recommendations at this time related to that issue. The OIG plans on doing future audit
work on a national level that will address the process used by DSC to determine when
enforcement actions are implemented and removed.

Regarding the 2001 C&D, with respect to troubled institutions DSC may want to be more
proactive in the future and include a provision in the enforcement action that the FDIC receive
prior notice of material transactions, out-of-territory lending, or new business activities and be
afforded the opportunity to review and comment on same before the institution concludes such
transactions or engages in such activities. Such a provision may be appropriate in those cases
where an institution’s primary business focus is experiencing a downturn or where earnings are




                                                29
deteriorating and a “quick fix” such as investing in highly speculative financial endeavors may
be tempting.


       Recommendation

We recommend that the Director, DSC:

(1)    Include a provision in enforcement actions for certain troubled institutions that the FDIC
       receive prior notice of material transactions, out-of-territory lending, or proposed new
       business activities and be afforded the opportunity to review and comment on same
       before the institution conducts such transactions or engages in such activities.




                                               30
Finding B: CBC’s Application to Purchase MTB Bank

The FDIC did not fully consider the past performance of bank management before approving the
application to acquire MTB Bank. This happened, in part, because FDIC guidance addressing the
review of management in conjunction with a merger or acquisition is vague and as such, there was
no requirement to assess certain specific attributes of management’s past performance. The bank
had a history of poor management, risky lending, insufficient loan administration, concentrations of
credit risk, and questionable compliance with banking laws. These deficiencies were not addressed
in the analysis of the application. In total, these management deficiencies raise doubts regarding the
FDIC’s decision to approve CBC’s application to acquire MTB Bank.

Section 18(c) of the FDI Act, 12 U.S.C. 1828, commonly known as the "Bank Merger Act," and
the FDIC Statement of Policy on Bank Merger Transactions require the prior written approval of
the FDIC before any insured depository institution may merge or consolidate with, purchase or
otherwise acquire the assets of, or assume any deposit liabilities of, another insured depository
institution if the resulting institution is to be a state nonmember bank. Institutions that undertake
a merger transaction as described above must file an application with the FDIC. The Bank
Merger Act requires, among other things, that the FDIC consider the financial and managerial
resources and future prospects of the existing and proposed institutions. The Bank Merger Act
also states that the FDIC normally will not approve a proposed merger transaction where the
resulting institution would fail to meet existing capital standards, continue with weak or
unsatisfactory management, or whose earnings prospects, both in terms of quantity and quality,
are weak, suspect, or doubtful. In evaluating management, the FDIC will rely to a great extent
on the supervisory histories of the institutions involved and of the executive officers and
directors proposed for the resultant institution. The FDIC, as required by the Community
Reinvestment Act (CRA), 12 U.S.C. §2901 et. seq., will also note and consider each institution's
Community Reinvestment Act performance evaluation record. An unsatisfactory record may
form the basis for denial or conditional approval of an application. Accordingly, each merger
application should be evaluated in light of the FDIC's intent and purpose to foster and maintain a
safe, efficient, and competitive banking system that meets the needs of the communities served.

The DSC Case Managers Procedures Manual provides limited guidance to case managers when
assessing management in conjunction with a prospective merger. The guidance states:
“Discussion of the general character of management should address ownership and active
management of each institution as well as the combined institution. Insider benefits should be
fully discussed.”

In accordance with its policy, DSC prepared an analysis of the application that evaluated, among
other things, the financial and managerial resources of both CBC and MTB Bank. The analysis
of CBC management indicated that “Management of CBC has been rated either a component ‘4’
or ‘3’ since the 1990 examination.” The management rating at the December 1999 examination
remained a “3.” The analysis also discussed each person who would be part of the senior
management team and noted that the stability of the current management team was viewed as a
positive sign.




                                                 31
Our review of the FDIC’s analysis of the application found no mention of the fact that the bank
had a history of poor management as evidenced by risky lending, insufficient loan
administration, concentrations of credit risk, questionable compliance with banking laws, and
insufficient responsiveness to examiner recommendations. It appears that the analysis was
focused more on the condition of the bank and the Chairman’s reported wealth and prior
willingness to inject substantial capital into the institution. In our opinion, the history of
management deficiencies at the bank raises doubts about the FDIC’s decision to approve CBC’s
acquisition of MTB Bank.

Further, related to the application review, the FDIC did not adequately validate and review the
financial status of the Chairman of the Board–the source of the capital injection required for the
Purchase and Assumption. While the FDIC’s Statement of Policy on Bank Merger Transactions
and the Case Managers Procedures Manual require the assessment of the financial resources of
the existing and proposed institutions, there is no requirement to validate the financial capability
of a would-be investor. As a result, the FDIC did not verify the financial information submitted
regarding the source of the capital injection and, accordingly, had no assurance that the principal
shareholder was, in fact, injecting the required amount of capital from his personal assets as
agreed to with the regulators.

In its application, CBC represented that its majority shareholder would inject $20 million into the
bank to purchase $10 million in common stock and $10 million in preferred stock, the proceeds
of which would be used to fund the acquisition transaction. According to DSC officials in
Boston, the majority shareholder represented that the $20 million would come from his own
personal assets. In order to assess his ability to provide the $20 million, the FDIC requested and
received a financial statement from the majority shareholder. DSC officials at the Boston Area
Office told us that they did not verify the information contained in the financial statement. Our
review showed that the financial statement was self-prepared, unaudited, lacked details, and
contained no supporting documentation. As a result, the financial statement was not sufficient to
determine the financial condition of the Chairman and provided little support or explanation for
the source of the $20 million capital injection.

Lastly, regarding the application review process, the CRA15 performance evaluation (CRA PE)
for CBC performed in late 1999, prior to the acquisition of MTB Bank, did not reflect the bank's
actual performance. Instead the rating was based on the bank's performance context16 and future
projections of performance. Because the majority of the bank's lending was outside of its
assessment areas by design, in the OIG’s view, the lending appeared not to meet the conditions



15
   The CRA was enacted as Title VIII of the Housing and Community Development Act of 1977 and applies to all
federally insured financial institutions, excluding credit unions. CRA requires that financial regulatory agencies
evaluate institutions' CRA performance and requires that these evaluations be disclosed to the public. In 1995, the
regulation was revised to emphasize performance rather than process, to promote consistency in evaluations, and to
eliminate unnecessary burden. The new rules require banks to meet the lending, service, and investment needs of
the communities where they accept deposits, and require that examinations focus on tangible performance-based
results rather than on procedures.
16
   A bank's performance context takes into account its financial capacity and size, legal impediments, and local
economic conditions and demographics, including the competitive environment in which it operates.


                                                        32
of a "Satisfactory" CRA rating.17 As a result, the rating may not have been an appropriate one on
which to base approval of the bank's application to acquire MTB Bank.

According to 12 C.F.R. 303.5, CRA ratings are to be taken into consideration as part of the
merger application review process, and an unsatisfactory record may form the basis for denial or
conditional approval of an application. In August 1999, the former FDIC Division of
Compliance and Consumer Affairs initiated a full scope CRA PE for CBC. The Examiner-in-
Charge (EIC) initially rated the bank a "Needs to Improve" due to its huge volume of out-of-
territory lending, low lending in low- and moderate-income areas, and the lack of small business
loans. The CRA PE reported the following:

        •    Although the bank's loan-to-deposit ratio averaged 77 percent, much of the lending
             included in the ratio benefited areas outside of the bank's assessment areas and
             beyond the state of Connecticut.

        •    Based on the bank's data, it appears that 70 percent of the loans originated by the
             bank were inside its assessment areas; however, the ratio is misleading as the lease
             finance receivables were originated to one local company but did not primarily
             benefit businesses or individuals inside the bank's assessment areas. The financial
             benefits of these leases were to companies located throughout the United States, with
             several benefiting foreign and offshore companies.

        •    A majority of the bank’s mortgage loans by both number (63 percent) and dollar
             amount (66 percent) were made outside the bank’s assessment areas. For those loans
             made inside the bank's assessment areas, the geographic distribution of the mortgage
             loans appeared favorable; however, only 24 percent of the census tracts were
             penetrated, and none of the loans were made in any of the area's low-income census
             tracts.

        •    The percentage of consumer loans originated inside the assessment areas was 69
             percent; however, the percentage measured by dollar showed that a majority had been
             lent outside the assessment areas. The bank’s consumer loan portfolio accounted for
             11.5 percent of the bank's total loan originations by dollar amount.

        •    The bank's level of small business lending within the community, both by number of
             loans and dollar amount, was considered inadequate. Less than a majority of small
             business loans (22 percent in total) were made within the assessment areas during the
             evaluation period; however, census data showed that 95 percent of the business
             establishments in the bank's assessment areas were small businesses.



17
  CRA performance is rated according to a four-tiered system: Outstanding, Satisfactory, Needs to Improve, and
Substantial Noncompliance. Banks given Satisfactory ratings are considered to have a satisfactory record of helping
meet the credit needs of their assessment areas, including low- and moderate-income neighborhoods, in a manner
consistent with their resources and capabilities.



                                                        33
       •   Only 10 percent of all census tracts inside the assessment areas were penetrated in the
           small business loan portfolio, indicating a lack of geographic dispersion. The small
           business lending data for other banks in the area showed that loans were, in fact,
           made by other banks in each of the census tracts in the bank's assessment areas,
           which demonstrated that lending opportunities existed.

After being informed of the preliminary rating, the bank’s president wrote a letter to the FDIC
EIC to document the constraints posed by the bank's performance context. The bank argued that
it had experienced several lending constraints during the period under review that included a
large portfolio of non-performing loans, poor earnings, and regulatory enforcement. Also, in an
effort to return the bank to profitability, bank management had focused its lending efforts on two
profitable market niches: lease finance receivables and accounts receivable lending. The EIC
noted that the benefit realized by the communities in which the bank operated was minimal. The
EIC also reviewed the other performance context issues raised by the bank and found that the
bank's assessment areas were booming and there was no reason why the bank could not make
loans. He looked at other banks in the area and their data showed that lending opportunities were
good, no major employer had closed down in the area, and the bank was returning to
profitability.

Despite these findings, the EIC said that DCA management decided to change the rating from a
“Needs to Improve” to “Satisfactory.” The transmittal letter sent to the bank noted, "CBC's CRA
performance is assigned a rating of ‘Satisfactory’ based largely on performance context and less
so on actual performance.” In addition, according to the CRA report, "The satisfactory CRA
rating assigned is largely based on the performance context, given that the actual penetration and
dispersion of lending within the bank's assessment areas during the past two and one-half years
warrants significant improvement."

According to the Community Reinvestment Act, a bank should be evaluated based on actual
performance and not on future projections of performance. Based on our review of the PE, CRA
examination workpaper files, and related correspondence, the "Satisfactory" rating assigned did
not reflect the actual CRA performance of the bank. Although the EIC's initial rating was
"Needs to Improve," after several meetings with bank management, the rating was upgraded to
“Satisfactory." However, we found no support justifying the change in rating based on
performance context issues.

Although CRA regulations, 12 C.F.R. §345.21, allow examiners to consider the institution’s
performance context when assigning CRA ratings, it appears that the performance context
factors were not applicable in the case of CBC. There was lack of evidence to support the bank’s
contention that operating under formal and informal enforcement actions forced it to lend outside
its assessment areas. Also, there was no evidence in the examination workpapers documenting
economic issues or unusual demographics related to the bank's lending area, such as: (1) high
unemployment in the area; (2) a major business or employer closing down; or (3) a prison,
reservation, or military installation in the area. These types of performance context issues could
cause the demographics of the community to appear to reflect more potential borrowers than
actually exist, or they could have adverse effects on a bank's lending levels. We also found that
although the bank was returning to profitability, it continued a pattern of extensive lending



                                               34
outside of its assessment areas. The strategy to lend outside of the bank's assessment areas was
the bank's decision and showed a lack of commitment to the community in which it was
operating.

Based on our review of CRA workpapers and follow-up discussions with the EIC and the
Review Examiner, we did not find convincing evidence to support the "Satisfactory" CRA rating
assigned. The rating appears to be based solely on the bank's projected performance and not on
its actual performance during the time period under review. As a result, the rating may not
have been an appropriate one on which to base the approval of the bank's merger application to
acquire MTB Bank.


       Recommendations

We recommend that the Director, DSC:

(2) Revise the Case Managers Procedures Manual to ensure that bank management is fully assessed
    before approving applications for mergers and acquisitions. This should include analyzing all
    aspects of corporate governance and examining management’s past responsiveness to
    recommendations made in examination reports.

(3) Regarding capital injections in conjunction with an acquisition, merger, or change of control
    application, require: (a) acquirers to specify the source of funding in the application package and
    provide proof the funds are available (this could include requesting tax returns, bank and broker
    statements, audited financial statements, and any other information deemed necessary to validate
    the source of funding) and (b) DSC to review and validate the information submitted by
    acquirers prior to executing the transaction, and document resulting determinations.

(4) Require field office examiners and regional office staff to fully document the rationale behind
    the decision-making process related to assigning CRA ratings that are based on special
    circumstances and not on a bank's actual CRA performance during the period under review. At a
    minimum, the documentation should include the rationale for assigning the CRA rating, a
    summary of DSC senior management's discussions with bank management, an explanation of
    the special circumstances considered, and a planned approach for periodic follow-up visits,
    offsite monitoring, or periodic reporting by the bank.




                                                  35
Finding C: Following Up on Red Flags

Examiners did not always follow up on red flags discovered during examinations prior to the
acquisition of MTB Bank. In particular, weak corporate governance and a poor internal control
structure, both of which were identified by examiners (and discussed previously in this report),
should have heightened the attention given by examiners to some questionable transactions. Red
flags that warranted more in-depth review included: (1) the bank booking approximately $4.5
million for a residual interest in four 727 cargo planes; (2) instances at the bank where adversely
classified loans were modified or paid off between examinations; and (3) the bank effectively
circumventing legal lending limits by structuring transactions as purchases rather than loans. A
more in-depth review by examiners might have revealed that the cargo planes were not properly
valued, some loans may have been renewed or restructured rather than paid off, and the purchase
transactions were in-substance loans and in violation of Connecticut legal lending limits.

Guidance provided by DSC to examiners states that it is essential for examiners to be alert for
irregular or unusual activity and to fully investigate the circumstances surrounding the activity.
Red flags should be reviewed thoroughly to determine whether there is any substance to them.
As necessary, field personnel should perform additional work as necessary to ensure that the
matters are resolved promptly. Our review of examination reports and related records shows that
questionable management practices were evident at CBC for many years. For the most part,
examiners identified these questionable practices and criticized bank management in
examination reports. Yet, we noted some bank practices and transactions prior to the acquisition
of MTB Bank that may have warranted more in-depth review by examiners.

Review of Cargo Planes

From 1997 until it failed, the bank’s financial statements reflected the residual value of its
interest in four Boeing 727 cargo aircraft. The bank’s interest in these aircraft resulted from a
1995 transaction in which the bank purchased $7.3 million in medical equipment for a leasing
arrangement. During 1997, in a complex transaction, the bank transferred legal title of the
medical equipment to an apparent affiliated party of the original seller of the equipment. As part
of the transaction, the bank received an interest in the residual value of four aircraft. The bank
estimated the value of that interest at approximately $4.5 million in 1997, at a time when its
equity capital was about $6.5 million. According to bank records and information we obtained
from DRR, the cargo planes were physically located in the United Kingdom and they were not
authorized to fly in the United States because they apparently could not comply with noise
abatement laws.

Our review of this transaction identified concerns about the bank’s valuation of its interest in the
planes and whether or not it had legal title and had perfected its interest in the planes.
Specifically, file documentation was lacking and the terms of the transaction were vague, an
onsite appraisal was not performed, and there was no definitive evidence that the bank had
secured proper title to the aircraft. According to DRR officials, it appears these planes were sold
in 2001 for approximately $2.5 million, and the bank received nothing from the sale of the
planes. This transaction was never disclosed to FDIC or State of Connecticut banking officials.
Examiners reviewed this transaction at every examination from 1996 forward and raised many of
the same concerns over collateral valuation and the bank’s ownership interest but apparently


                                                36
relied on a “desk top” appraisal that indicated the planes were worth over $14 million. As shown
in the table below, this asset represented a significant part of the bank’s equity capital from 1997
through 1999.

                                              Table 5
                                 Carrying Value of Cargo Planes
                                  as a Percent of Equity Capital
                                         ($ in thousands)

                                                     1997     1998       1999
                    Value of Planes                  $4,459   $4,459     $4,440
                    Equity Capital                   $6,490   $6,937     $8,172
                    Percent of Capital               68.7%    64.3%      54.3%
                      Source: OIG analysis


Our review of this asset identified a number of red flags concerning the value assigned by the
bank. Specifically:

•   File documentation was lacking and terms were vague. There was insufficient information
    to explain how the asset changed from a leasing of medical equipment arrangement to a
    residual interest in cargo aircraft. Further, the value of the aircraft should have appeared
    suspicious based on information in the bank’s 1997 audited financial statements that
    indicated the bank purchased the medical equipment for $6.3 million, yet sold its interest in
    the medical equipment to the lessee for $2.2 million. Based on that information, it appears
    CBC’s carrying value of the cargo aircraft was significantly higher than the value of the
    equipment. Lastly, information identifying whether CBC’s ownership interest was
    subordinate to another party’s interest, as it appears to have been, was not clear.

•   An onsite appraisal was not performed. The bank only obtained “desktop” appraisals for this
    asset. The appraiser relied on the value of comparable aircraft in published sources of
    secondary market information and discussions with brokers and dealers. As a result, critical
    information such as the condition of the planes, engine age, flight hours, and maintenance
    records were not considered in the planes' valuation.

•   The bank’s legal ownership right to the planes was in question. No title information was
    available and it is unclear whether the bank was the first lien holder or in a subordinated
    position as to legal right to proceeds in a sale of the planes. Further complicating the
    valuation was that the planes were apparently located in the United Kingdom and did not
    meet the Federal Aviation Administration requirements to fly in the United States.

Because this asset represented 68 percent of the bank’s equity capital in 1997, we believe this
transaction warranted more in-depth review. While examiners raised many of the same concerns
identified above, they appeared to rely mostly on the value contained in the desktop appraisal.




                                                37
Reviewing Loans Modified/Paid Off

Some adversely classified assets, subsequently brought current or paid off, may have warranted
further review to determine the integrity of the transactions. Some examiners we interviewed
told us that it was not unusual for them to classify an asset at the bank and at the next
examination discover that the asset had been paid off or restructured. Examiners told us that
they generally do not review assets that have been repaid and are no longer on the bank’s books.
We found one line of credit totaling $9.4 million and representing over 138 percent of capital
that raises many questions, including the source of payment and whether loans in the line of
credit were in fact repaid. Renewing or restructuring non-performing loans can make a bank’s
condition appear better than it is and forestall regulatory actions.

Our review of examination reports indicates that examiners devoted a significant amount of time
during examinations reviewing CBC’s loan portfolio. Examiners frequently reviewed over
50 percent of the loan portfolio due to the bank’s poor condition and risky lending practices.
Examiners informed us that they generally do not review a loan file if the loan has been paid off.
One line of credit (line) pertaining to an oil operation in Canada apparently originated sometime
in 1997 may have warranted further review. Examiners identified this loan as a concern in the
1998 FDIC and State of Connecticut examination reports. The total outstanding amount of this
line was $9.4 million–approximately 138 percent of capital. The loans associated with this line
represented a complex legal and operating structure involving several interrelated companies and
their principals. The loans were used to fund various aspects of an oil processing and
distribution facility in Alberta, Canada. Red flags associated with this line included the
following:

•   Loans associated with this line were frequently modified and/or delinquent. A March 31,
    1998 status report indicated that seven of the loans in the line were delinquent, ranging from
    31 days to 152 days.

•   Related to the March 31, 1998 status report, examiners discovered that one of the loans
    shown on the status report as 36 days delinquent was in fact 126 days delinquent. Bank
    management could not explain why the system did not reflect the actual number of
    delinquent days.

•   Between the 1998 and 1999 examinations, in a series of convoluted transactions, some of the
    loans were either restructured, sold to a company controlled by CBC’s Chairman, or paid off.
    Also, a guarantor of the line with strong financial capability was released from his
    obligations without explanation. The line was reduced by over $6 million, but it was unclear
    where the payments came from.




                                                38
Records related to these transactions indicate examiners reviewed these transactions and inquired
about their status with bank personnel. However, in correspondence we reviewed, bank
personnel appeared evasive in their answers. Examiners we interviewed said they verified that
payments had been made but did not review payments to determine their source or determine
whether these were arms-length transactions. According to information obtained from the 2002
examination, the outstanding balance on loans related to this line was over $8 million.

Avoiding Legal Lending Limits

Starting in 1997, the bank made a number of loans that appeared to exceed the legal lending
limits of the State of Connecticut. The bank lent millions of dollars for what it termed accounts
receivable purchase facilities. The bank asserted that the accounts receivable purchase facilities
were not loans but rather the outright purchase of the borrower’s accounts receivable. By
structuring the deals as purchases, the bank contended that each underlying accounts receivable
was the de facto borrower and thus only the individual accounts receivable amount would be
applicable to the legal lending limits of the State of Connecticut. Between 1997 and 1999, when
its legal lending limit ranged from $1.24 million to $1.53 million, the bank lent money to several
borrowers for accounts receivable purchases in excess of that amount, ranging as high as
$10 million to one borrower. Examiners noted that the “loans acquired under the Receivable
Purchase Facility Program appear, in substance, to be direct loans to the companies rather than
account receivables.” However, after receiving a legal opinion from the bank’s attorney
suggesting otherwise, the matter was not pursued. By December 31, 1999, accounts receivable
purchases represented approximately 28 percent of the bank’s total loan and lease portfolio.
Several of these transactions were in excess of the bank’s legal lending limit. According to DRR
records, one of these transactions with a book value over $6.5 million was sold in October 2002
for approximately $1.75 million, less than 27 percent of its book value.

As previously discussed in this report, the bank originated a number of these transactions that
appeared to exceed the legal lending limits of the State of Connecticut. Because this was a state
banking law, FDIC examiners deferred to the State of Connecticut Department of Banking on
this matter. The bank’s attorney wrote various legal opinions explaining why these transactions
would not be subject to legal lending limits. We discussed this matter with Connecticut
Department of Banking officials. They explained to us that the legal lending limit laws are
somewhat ambiguous, and they determined that the transactions, as purchases of receivables,
would likely be legal under existing Connecticut law. Connecticut banking officials also
informed us that they discussed the matter internally but did not ask for a formal legal opinion
from their own attorneys, stating that because the law was vague, the bank’s interpretation of it
would be difficult to refute.

However, from evidence we reviewed, these transactions appear to have been purposely
structured in a manner to avoid the legal lending limits. For example, examiners noted that the
individual accounts receivable were not required to make payment to a lock box controlled by
the bank, suggesting a lack of direct obligation of the receivable to the bank and lack of control
by the bank. Examiners also noted that information about the accounts receivable was not in
many files; therefore, the actual obligors were not known. Also, there were no documented
onsite reviews of the obligors, or documented reviews of the obligors’ creditworthiness by the
bank.


                                                39
During 2000, DSC began a series of initiatives for examiners in detecting fraud during safety and
soundness examinations. Three Regional Director Memorandums addressing fraud and internal
controls were issued during February and March 2000. Additionally, DSC initiated enhanced
examiner training in the area of fraud detection and internal controls and the detection of fraud
indicators, commonly referred to as red flags. All examiners were required to attend a refresher
course for training in fraud detection techniques and each regional office implemented an on-the-
job training program. Because most of the aforementioned red flags occurred prior to this
training, we are not making any recommendations in this report addressing the investigation of
red flags.

However, we offer the following recommendation regarding legal lending limits and their
importance in helping to protect the safety and soundness of banks by preventing excessive loans
to one person and promoting risk diversification.

       Recommendation

We recommend the Director, DSC:

(5)    Encourage examiners to work collaboratively with state examiners at resolving issues related
       to state banking laws, particularly when those issues directly affect the safety and soundness
       of an institution. This would include seeking advice from counsel.




                                                40
Finding D: Implementation of Prompt Corrective Action

Once DSC identified the effects of the nominee loan scheme, it notified the bank of its capital
category and promptly took discretionary actions available under PCA. However, PCA’s
effectiveness at minimizing losses to the insurance fund was limited because the Chairman’s
nominee loan scheme artificially inflated capital and, once detected, caused a precipitous decline
in capital. PCA’s effectiveness was further limited by the bank overstating its capital each year
since 1997.

PCA was incorporated into the FDI Act under Section 38, effective December 19, 1992. PCA
aims to resolve the problems of insured depository institutions at the least possible long-term loss
to the deposit insurance fund. For those institutions that do not meet minimal capital standards,
regulators may impose restrictions on dividend payments, limit management fees, cur asset
growth, and restrict activities that pose excessive risk to the institution. Section 38 of the FDI
Act defines five capital categories for insured financial institutions as follows: well-capitalized,
adequately capitalized, undercapitalized, significantly undercapitalized, and critically
undercapitalized. The section requires specific supervisory actions to occur when the financial
institutions fall into any one of the lower three capital categories. PCA supplements the use of
other available enforcement tools (e.g., Cease and Desist Orders, Section 8(e) removal of an
institution-affiliated party, civil money penalties) that may address unsafe and unsound banking
practices before capital becomes impaired.

CBC experienced capital deficiencies from 1991 until 1996 as a result of poor asset quality. FDIC
and state regulators imposed two C&D Orders (1991 and 1993) that required the bank to submit
various capital plans and to maintain minimum capital levels. Despite several capital injections by
the Chairman of the Board of Directors totaling over $17 million in the early 1990s, the bank
remained undercapitalized until 1996. The C&D Orders generally required higher capital than was
required under PCA due to the high risks identified by examiners at the bank. In December 1996,
CBC’s PCA capital category reached an acceptable position of “adequately capitalized” and
remained adequately capitalized until 1999, when it became “well-capitalized.” In March 1999, the
two C&D Orders were replaced by an MOU, which is an informal action not enforceable in court.
The MOU also set capital levels higher than the minimum requirements due to the riskier lending
and asset purchase transactions undertaken by CBC management.

In the March 2001 examination, capital levels remained above the MOU requirement and capital
was considered marginal. A C&D Order that became effective in December 2001 addressed the
deficiencies of the bank and included a requirement to maintain Tier 1 capital at a minimum
level of 7.5 percent. During an examination begun in April 2002, when the effects of the
nominee loans were realized, capital was immediately exhausted and the bank’s PCA capital
category became “critically undercapitalized.” A minimum capital injection of $34.3 million
was needed to bring capital within compliance of the provision of the December 2001 C&D
Order. On June 25, 2002, the FDIC issued a PCA Directive ordering the dismissal of the
Chairman of the Board and the president from the bank.

As previously mentioned, from 1997 until CBC failed in 2002, the bank had booked a residual
interest in four 727 cargo planes. The value of this interest ranged from $4 million to



                                                41
$5.2 million during that period. In actuality, the value of these cargo planes was significantly
less, but the bank was able to hide that fact from examiners. Had the $4.5 million been deducted
from CBC’s capital account, the bank would have had a PCA capital category of “critically
undercapitalized” from 1997 forward and would have been prevented from acquiring MTB Bank
due to the capital deficiency.

When a bank is determined to have capital ratios lower than those appropriate for the bank, the
manner in which a capital plan is developed and submitted to the FDIC will depend largely on
the nature of any other corrective measures (capital directive, PCA directive, C&D Order, or
MOU) that will be taken. CBC had other enforcement actions imposed prior to and after the
enactment of PCA. The capital requirements of the other enforcement actions were stricter than
the PCA requirements. However, the substantial drop in capital that resulted from the nominee
loan scheme, the inappropriate valuation of the cargo aircraft, and other questionable asset
valuations limited the effectiveness of PCA at minimizing losses to the BIF.

We are not making any formal recommendations at this time regarding the implementation of
PCA. The OIG is currently performing a detailed review of PCA and its effectiveness, as it
pertains to FDIC-supervised banks. We will incorporate the results of CBC in that report, as
appropriate. We anticipate issuing the final report during the third quarter of 2003.




                                               42
CORPORATION AND STATE OF CONNECTICUT COMMENTS AND OIG
EVALUATION

On March 6, 2003, the DSC Director provided a written response to the draft report. The
response is presented in its entirety as Appendix IV to this report. DSC “fundamentally” agreed
with four of the five recommendations. Although DSC disagreed with one recommendation, the
division is taking an alternative corrective action that appears to address the intent of the
recommendation. Accordingly, we consider all five recommendations to be resolved, but the
recommendations will remain undispositioned and open until we have determined that corrective
action has been taken and is effective.

Prior to responding to the report’s five recommendations, DSC provided comments on certain
parts of the report. Those comments are bulleted below, followed by the OIG’s evaluation of
those comments, in italics.

•   Disclosure of Privileged and/or Predecisional Information

    In its response, DSC expresses concern related to disclosure of privileged and/or
    predecisional information in our report, in light of pending administrative and civil litigation
    arising out of the failure of CBC and the conduct of CBC's Chairman and President. The
    FDIC’s Legal Division expressed similar concerns earlier.

    We previously invited the Corporation to identify specific information that it considered
    privileged, but no specific information of concern has been identified. In requiring us to perform
    a material loss review under Section 38 of the FDI Act, the Congress specifically eliminated
    exemptions from public disclosure that may be invoked by the government to shield from release
    information that is predecisional in nature. In doing so, the Congress concluded that the
    importance of full and public discussion of the supervision of failed institutions is greater than
    the need to protect from public release information pertaining to the relevant predecisional
    processes of a Federal regulator. Accordingly, while we understand the concerns expressed by
    DSC and the Legal Division, our discussion in this report of the actions of the FDIC as
    supervisor of CBC is necessary to fully discharge our statutory obligation to conduct this review
    and is consistent with the requirements of the FDI Act and the Congressional intent embodied in
    the Act.

•   Cause of Failure

    DSC disagrees with the OIG’s conclusion that CBC failed and resulted in a material loss to
    the Bank Insurance Fund (BIF) because of ineffective corporate governance. It is DSC’s
    position that “the proximate cause of CBC’s failure was insider fraud in the form of nominee
    loans totaling at least $34 million.” DSC further notes that ineffective corporate governance
    resulted in excessive risk taking, disregard for laws and regulations, and questionable asset
    valuations–all of which exacerbated the potential loss to the FDIC. DSC states that high-risk
    lending combined with poor risk management practices caused significant losses for CBC
    prior to failure and has resulted in deep discounts on assets sold by the FDIC. As receiver,
    the FDIC has also realized significant losses on the liquidation of certain other assets.


                                                 43
    However, DSC contends that the largest contributing factor to CBC’s failure and the material
    loss to the FDIC was fraud perpetrated by insiders of the bank.

    We agree that the nominee loan schemes were a key component of the material loss to the
    BIF and ultimately resulted in the bank’s closure. However, in our opinion, the loan
    schemes were the proximate cause of the bank’s closure, not the failure, which we believe is
    an important distinction. However, our review of CBC disclosed a failure by its Board of
    Directors and senior management to operate the bank in a safe and sound manner for many
    years prior to the bank’s closure as noted in DSC’s response. As discussed in this report,
    had examiners or the independent auditor uncovered the true nature of various transactions
    and determined the proper valuation of certain material assets earlier, the bank may have
    been declared critically undercapitalized before June 2002. As DSC explains in its response,
    the reported capital of CBC on March 31, 2002 was over $29 million. As of
    December 31, 2002 the FDIC estimates the loss to the BIF associated with this failure at
    $63 million. Assuming the FDIC receives nothing for the $34 million in nominee loans, the
    magnitude of the loss indicates that other activities allowed to occur both before and after
    the nominee loans as a result of ineffective corporate governance, significantly contributed
    to the demise of this bank and resulting material loss.

•   Scope of Fraud Investigation

    DSC stated that “the OIG’s comments throughout the Draft Report do not accurately depict
    the complexity of the nominee loan schemes at CBC or the scope of the investigation
    necessary to fully uncover the magnitude of the fraud.”

    Our report discusses at length the nominee loan scheme and the 10(c) investigation into the
    scheme that resulted from the March 2001 examination. We reiterate that DSC conducted a
    lengthy, complex, and thorough investigation that ultimately uncovered the nominee loan
    schemes and led to the bank’s closure. We also have noted as such in our transmittal of this
    report to the Congress and the Comptroller General of the United States.

•   Interest in Cargo Planes

    DSC believes the OIG’s conclusion regarding CBC’s interest in the cargo planes is
    unfounded. DSC states the following:

       The OIG apparently assumes that if CBC or the FDIC as receiver eventually received
       nothing from the sale of the planes that the asset never had value and should have been
       charged off in 1997. In reality, asset values fluctuate and residual interests are generally
       much more volatile than the value of the underlying asset. The OIG cannot impeach the
       historical value of the cargo planes based on subsequent events. More specifically, it is
       not fair to assume that the asset had no value in 1997 (and forward) based on events in
       2001 and/or 2002. … At the 1996 examination, CBC’s interest in the four cargo planes
       was reviewed by a senior FDIC examiner and capital markets specialist. (This examiner
       was not interviewed by the OIG.) The examiner concluded that there were no credit or
       administrative weaknesses associated with the transaction.



                                                44
    Our concerns regarding the cargo planes stemmed from a number of red flags surrounding this
    asset that we believe warranted further review. In addition to the complexity of the transaction,
    there was insufficient evidence in the bank’s file to properly assess the valuation of the planes
    and to determine the extent of the bank’s residual interest. Of particular concern was
    examiners’ reliance on a “desktop” appraisal that lacked critical information as to the planes’
    airworthiness, engine hours, and maintenance records. Also, file documentation was lacking to
    determine whether the bank held proper title to the asset and whether or not it had perfected a
    lien against the asset. Additionally, the fact that these planes were not located in the United
    States should have raised examiners’ concerns.

    With respect to DSC’s concern that we did not interview the examiner involved in the 1996
    examination, the bank’s interest in the cargo planes was not reported on its balance sheet until
    1997. Accordingly, we interviewed examiners from the 1997, 1998, 1999, and 2001
    examinations about this particular asset.

    With regard to the true value of the planes in 1997, we note that the bank’s interest in the planes
    resulted from a complex transaction in which the bank transferred legal title of medical
    equipment in exchange for a residual value of the aircraft. This medical equipment was another
    investment in which the bank had lost money and the bank was apparently trying to mask the
    loss in its financial statements by entering into this transaction involving the aircraft. The value
    of the medical equipment at the time of the transaction, based on the bank’s 1997 financial
    statements, was $2.2 million - considerably less than the original $6.3 million purchase price.

    Nevertheless, in recognition of DSC's comments, we have clarified our report to reflect the
    uncertain value of the planes in 1997 and its impact on the institution's capital rather than the
    presentation in the draft report which made it appear with certainty that the planes had no
    value at that time.

•   Acquisition of MTB Bank

    DSC notes that it conducted an extensive analysis of the proposed management team of the
    resultant bank. Under the proposal, CBC would obtain three additional outside directors
    from MTB, six senior officers from MTB, and three completely new senior officers to be
    hired due to the acquisition. The addition of three outside directors and nine senior officers
    was viewed favorably, and many of the officers would fill positions in areas where
    deficiencies had been identified.

    DSC also stated that it clearly had concerns regarding the prior history of poor management
    at CBC. However, DSC determined that the improvement in management’s responsiveness
    and the potential to add many new qualified members to the management team outweighed
    its reservations regarding CBC’s past regulatory troubles. DSC also noted that the 1998 and
    1999 Reports of Examination “saw an increased effort by management to adhere to
    regulatory recommendations and implement corrective actions.”

    In the analysis of the application, DSC commented extensively on proposed senior
    management and Directors of the bank and noted that this would favorably impact the bank.



                                                  45
    However, we did not see any evidence in DSC’s analysis that addressed the lack of corporate
    governance at the bank and past deficiencies identified at every examination, many of which
    remained uncorrected. Uncorrected deficiencies included poor risk management and risk
    diversification practices, weak underwriting, and frequent under-funding of the ALLL. We
    believe these are serious deficiencies that should have caused DSC to more fully deliberate
    on the advisability of the acquisition. In addition, there was no mention in the analysis of the
    bank’s responsiveness to examiner recommendations even though DSC’s own guidance to
    examiners provides that one of the factors related to the capability and performance of
    management and the board of directors is its responsiveness to recommendations from
    auditors and supervisory authorities.

    The analysis appeared to emphasize the cash being injected into the bank by the Chairman
    and prior cash injections by the Chairman. The analysis noted the Chairman’s “wealth is a
    source of financial strength to the bank, and he has demonstrated a willingness and ability to
    meet every request for recapitalization since acquiring the bank in 1992, which at the time
    was on the verge of failure.”

•   Enforcement Actions

    DSC states that while CBC may not have been in compliance with every provision of the
    C&D Orders, management’s efforts to comply with the enforcement actions had improved
    considerably. Also, for enforcement actions issued in 1991 and 1993, many of the provisions
    were no longer applicable because CBC’s business activities had changed or the actions
    themselves did not address new activities and deficiencies that DSC was most concerned
    with in 1999. Given management’s better efforts to adhere to regulatory recommendations at
    that time, the bank’s improving financial condition, the bank’s “3” Composite rating, and
    management’s willingness to sign the MOU, DSC did not pursue replacing the C&D Orders
    with a formal enforcement action.

    Although the OIG has concerns about the lifting of the C&D Order when the bank did not
    appear to be in substantial compliance, we did not make any recommendation in this area. We
    are concerned that if a bank is not complying with a legally enforceable order, it seems unlikely
    to us that a bank would comply with an even less restrictive supervisory action like an MOU.
    DSC guidance provides that an MOU may be more appropriate than a formal action when
    management of the institution has, in good faith, addressed problems. Because CBC
    management refused to provide detailed written Board of Directors’ meeting minutes, failed to
    develop a sufficient methodology for the ALLL, and did not correct violations of law and loan
    technical exceptions, we questioned the removal of the C&D Order.

•   Examiner Concerns Ignored

    DSC’s response states that the bank attempted to address DSC’s concerns in certain areas,
    but while the bank’s actions were positive, DSC was not fully satisfied and certain criticisms
    were repeated. Other times, management implemented some specific recommendations fully
    but new deficiencies would be found in other areas. Also, as DSC pointed out elsewhere in




                                                 46
    its response, the 1998 and 1999 examinations noted marked improvement in management’s
    efforts to address regulatory issues and the outstanding enforcement actions.

    We recognize that the bank addressed some examiner concerns, but most were not addressed,
    as evidenced by the 2001 Report of Examination that reported on deficiencies in the following
    significant areas: loan administration, ALLL methodology, internal audit, and other matters
    that had been identified in previous examinations.

•   Community Reinvestment Act Rating

    According to DSC, the CRA rating did not contribute to the bank’s failure and appears to be
    outside the scope of the material loss review. DSC also disagreed with our conclusion that the
    bank’s rating was based on projected performance and believes the rating of satisfactory was
    sound, noting "lending efforts were hampered by a large portfolio of non-performing loans,
    poor earnings, regulatory enforcement actions, and a reduction in personnel.”

    We reviewed the 1999 CRA examination report because it was applicable to CBC’s application
    to acquire MTB Bank - a key event in the bank’s history. The Bank Merger Act requires that a
    bank’s CRA rating be assessed in conjunction with any applications submitted by a bank.

    The CRA Performance Examination report indicated the bank was not satisfactorily lending in
    its assessment area. Based on information that we reviewed, there was insufficient evidence to
    support the contention that performance context issues forced the bank to lend extensively
    outside its assessment areas. The bank made a significant number of out-of-territory loans for
    accounts receivable purchase facilities – a labor intensive business. Such loan activity would
    involve substantial staff resources and appears to contradict the statement that lending efforts
    in the bank’s assessment areas were hampered because the bank faced reductions in personnel.
    Based on the above, we contend that the examiner’s original rating of “Needs to Improve”
    (rather than “Satisfactory”) was sound.

•   Other Concerns

    In the introduction to its response, DSC states that the draft report was dated February 26, 2003
    and was received on March 4, 2003. In addition, DSC expressed concerns about responding to
    a draft report that “continues to undergo changes.”

    The response as written is misleading. On February 12, 2003, we met with several DSC
    officials and explained in detail the contents of the report. Also at that meeting, we provided
    DSC officials a copy of the report’s recommendations. Recognizing that the congressionally
    mandated deadline for issuing material loss reviews does not usually allow us to provide DSC
    the typical comment period, we provided DSC an advance copy of the draft report on February
    21, 2003, so they could begin formulating their written response. On February 26, 2003 we
    issued an electronic version of the official draft to DSC and on February 27, 2003 hand-carried
    20 copies of the report to DSC officials in Washington DC. Mostly at the request of DSC and
    the FDIC Legal Division, we subsequently made some minor changes to the draft report to help
    provide clarity and ensure factual accuracy.


                                                 47
   Under section 38(k) of the FDI Act, we are required to issue the final version of a material loss
   review report within 6 months after determining that a material loss has occurred to a deposit
   insurance fund.

DSC Responses to OIG Recommendations

DSC generally agreed with four of the five recommendations. Although DSC disagreed with
Recommendation 3, DSC provided an alternative corrective action that addresses the intent of
that recommendation. Accordingly, we consider all five recommendations resolved; however,
they will remain undispositioned and open until we can determine that corrective action has been
taken and does in fact address our concerns. As one course of action that addresses all of the
recommendations, DSC will discuss this report at a senior management meeting with all of its
regional directors during the week of March 10, 2003. Detailed below is a summary of each
recommendation and DSC and OIG comments pertaining to the recommendation.

Recommendation 1: Include a provision in enforcement actions for certain troubled
institutions, that the FDIC receive prior notice of material transactions, out-of-territory
lending, or proposed new business activities and be afforded the opportunity to review and
comment on same before the institution conducts such transactions or engages in such
activities.

DSC agrees with this recommendation. DSC will address this topic during periodic
teleconferences that DSC currently has with all regional offices to discuss enforcement actions in
process. DSC states that DSC and PCA often require prior notice of "new" business activity;
however, our concern is with “material” activity that may be transacted in the area of new or
existing business activities, or in situations that may involve insider fraud or other management
deficiencies.

Recommendation 2: Revise the Case Managers Procedures Manual to ensure that bank
management is fully assessed before approving applications for mergers and acquisitions.
This should include analyzing all aspects of corporate governance and examining
management’s past responsiveness to recommendations made in examination reports.

DSC agrees with this recommendation. By September 30, 2003, DSC will review its Case
Managers Procedures Manual to determine whether more guidance is needed regarding the
assessment of management during the review of mergers and acquisitions.

Recommendation 3: Regarding capital injections in conjunction with an acquisition, merger,
or change of control application, require: (a) acquirers to specify the source of funding in the
application package and provide proof the funds are available (this could include requesting
tax returns, bank and broker statements, audited financial statements, and any other
information deemed necessary to validate the source of funding) and (b) DSC to review and
validate the information submitted by acquirers prior to executing the transaction, and
document resulting determinations.




                                                 48
DSC considers this recommendation too broad and unnecessary. DSC believes that verifying
financial information and the source of funding on every merger application would create undue
regulatory burden. According to DSC, it processed 350 merger and change of control applications
during 2002 and believes this requirement would be an imprudent use of its resources.

Our recommendation is aimed principally at those mergers or change of control applications that
require a capital injection. While we have no specific data available to review, we estimate that
capital injections would be required in only a small fraction of mergers and change of control
applications. To require less information from an investor trying to purchase an FDIC-insured
institution than a typical borrower would be required to submit for a loan at a bank seems
fundamentally flawed. In our view, the relatively small amount of time needed to ascertain and
validate financial capability far outweighs the risk of repeating what happened at CBC.

However, because DSC indicated that it will consider adding or clarifying guidance to the Case
Managers Procedures Manual by September 30, 2003, we consider this recommendation resolved.

Recommendation 4: Require field office examiners and regional office staff to fully document
the rationale behind the decision-making process related to assigning CRA ratings that are
based on special circumstances and not on a bank's actual CRA performance during the
period under review. At a minimum, the documentation should include the rationale for
assigning the CRA rating, a summary of DSC senior management's discussions with bank
management, an explanation of the special circumstances considered, and a planned approach
for periodic follow-up visits, offsite monitoring, or periodic reporting by the bank.

DSC indicates that existing guidance issued in 2001 and updated in 2003 addresses this
recommendation. As part of the audit resolution process, the OIG will review the updated guidance
to determine whether it addresses the intent of this recommendation.

Recommendation 5: Encourage examiners to work collaboratively with state examiners at
resolving issues related to state banking laws, particularly when those issues directly affect the
safety and soundness of an institution. This would include seeking advice from counsel.

DSC believes that current guidance and the distribution of this report provides staff with
sufficient guidance on issues raised in this recommendation. The OIG plans to perform an audit
in the area of coordination with state banking supervisors and will further evaluate this issue as
part of that review.

Appendix VI contains a summary chart of management’s responses to our recommendations.


State of Connecticut Response

On March 7, 2003, the Banking Commissioner for the State of Connecticut provided a written
response to the draft report. The response is presented in its entirety as Appendix V to this
report. In his response, the Commissioner stated that our review is “reasonably presented” and
the recommendations “entirely appropriate.” The Commissioner noted in his response that the



                                                 49
State of Connecticut Department of Banking, in considering the merits of CBC’s acquisition of
MTB Bank, had assessed and received confirmation of the Chairman’s intent to use personal
financial resources for the $20 million capital injection. It would appear that the State and the
FDIC relied on the same information regarding this matter. As discussed in our report, we
concluded that more needed to be done to validate the Chairman’s intention.

Finally, the Commissioner indicated that the Department has proposed legislation that, if
enacted, would address issues raised in this report pertaining to legal lending limits.




                                                50
                                                                             APPENDIX I

OBJECTIVES, SCOPE, AND METHODOLOGY

We performed this audit in accordance with section 38(k) of the Federal Deposit Insurance (FDI
Act), which provides that if a deposit insurance fund incurs a material loss, with respect to an
insured depository institution, on or after July 1, 1993, the Inspector General of the appropriate
federal banking agency shall prepare a report to that agency reviewing the agency's supervision
of the institution. A loss is considered material if it is or becomes apparent that the loss will
exceed $25 million and 2 percent of the institution's total assets at the time the Corporation was
appointed receiver. The FDI Act requires that the OIG report be completed within 6 months
after "it becomes apparent" that a material loss has been incurred. However, the amount of the
loss estimate can vary based on changing economic conditions and the FDIC's approach to
resolving and liquidating the institution. The actual loss will not be known until all receivership
assets are liquidated. As a result, in determining whether to initiate a material loss review, the
OIG generally relies on the loss estimates recorded by the FDIC's Division of Finance (DOF).
CBC was closed on June 26, 2002 with total assets of about $379 million. On September 10,
2002, DOF provided the OIG with its initial estimated loss of $65 million to the Bank Insurance
Fund, and we immediately initiated our material loss review. As of December 31, 2002, the
revised estimated loss is $63 million.

The scope of this audit included an analysis of CBC's operations from 1991 until its failure on June
26, 2002. Our review also entailed an evaluation of the regulatory supervision of the bank over the
same period. As mandated by the FDI Act, the audit objectives were to: (1) ascertain why the
bank’s problems resulted in a material loss to the insurance fund and (2) assess the FDIC’s
supervision of the bank, including implementation of the Prompt Corrective Action (PCA)
requirements of section 38 of the FDI Act. To achieve these objectives, we performed the following
procedures and techniques:

•   Analyzed examination and visitation reports prepared by the FDIC and the State of
    Connecticut examiners from 1991 until 2002;
•   Reviewed bank data and correspondence maintained at the Division of Supervision and
    Consumer Protection’s (DSC) Boston Area Office;
•   Reviewed reports prepared by the Division of Resolutions and Receiverships (DRR) and
    DSC relating to the bank's closure;
•   Interviewed DSC management in Washington, D.C., and the Boston Area Office;
•   Interviewed DRR officials at the Dallas Regional Office;
•   Interviewed FDIC examiners from the Hartford, Connecticut Field Office and Boston Area
    Office who participated in examinations or reviews of examinations of CBC;
•   Met with officials from the State of Connecticut Department of Banking to discuss the
    historical perspective of the institution, its examinations, state banking laws, and other
    activities regarding the state's supervision of the bank;
•   Researched accounts receivable purchase facilities;
•   Reviewed bank records obtained from DRR in Dallas, Texas, for information that would
    provide insight into the bank's failure;
•   Reviewed various annual reports and accompanying financial statements;


                                                51
•   Reviewed pertinent DSC policies and procedures; and
•   Researched various banking laws and regulations, including legal lending limits for the State
    of Connecticut.

We performed the audit fieldwork at the DSC and Legal Division Boston Area Office in
Braintree, Massachusetts; the DSC field office in Hartford, Connecticut; DRR offices in Dallas
and Carrollton, Texas; the State of Connecticut Department of Banking in Hartford, Connecticut;
and DSC offices in Washington, D.C. We conducted the audit from September 2002 through
January 2003 in accordance with generally accepted government auditing standards.

Due to the limited nature of the audit objectives, we did not assess DSC's overall internal control
structure. We did not test internal controls, review performance management, or test for
irregularities or illegal acts, except as noted in this report and concerning the nominee loan
scheme. Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with the provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act.

We performed a limited review of CBC's management controls pertaining to its operations, to
ensure:

•   Programs (lending, risk management, etc.) met objectives;
•   Validity with reliability of data is obtained, maintained, and fairly disclosed in reports;
•   Compliance with laws and regulations; and
•   Safeguarding resources against waste, loss, and misuse.

We reviewed documentation and conducted inquiries regarding CBC's illegal acts or abuses that
were identified by FDIC.

We did not assess the validity and reliability of computer-based and processed data from CBC or the
FDIC because this was not an objective of the audit. We relied upon interviews and individually
prepared reports and correspondence and other evidence to support our audit. Therefore, the audit
results were not impacted.

The Government Performance and Results Act of 1993 (the Results Act) directs Executive Branch
agencies to develop a customer-focused strategic plan, align agency programs and activities with
concrete missions and goals, manage and measure results to justify appropriations and
authorizations, and design budgets that reflect strategic missions. In this audit, we did not assess the
strengths and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment was not part of the audit objectives.




                                                   52
                                   March 22, 2000 LOAN SCHEME
                                                                                                  APPENDIX II



                                                Affiliate 1
                                                $1,450,000
                                                Affiliate 2
                                                                                                  $10,000,000
                                                $1,500,000
                                                Affiliate 3
                                                $1,350,000
                                                Affiliate 4
                                                $1,399,800
                                                Affiliate 5
                                                $1,000,000
                                                Affiliate 6                                       Chairman’s
                                                $1,000,000                                      Deposit Account

Connecticut Bank of                             Affiliate 7
   Commerce                                     $1,500,000


                                               Borrower 1
                                               $3,000,0000
                                                                                          Unaffiliated Bank

                                               Borrower 2                                           $1,300,000
                                               $1,000,000                                       Internal Transfer

                                               Borrower 3
                                               $1,000,000
                                                                                                     CBC
                                               Borrower 4
                                                                                                  Investment
                                               $1,100,000                                         Partners LLC
                                               Borrower 5
                                               $1,000,000
                                               Borrower 6
                                               $1,000,000
                                               Borrower 7
                                                                                                  $10,000,000
                                               $1,300,000
                                               Borrower 8
                                                $500,000
                                               Borrower 9
                                               $1,400,000




               Source: Division of Supervision and Consumer Protection, Hartford Field Office

                                                           53
                                                                               APPENDIX III


CHRONOLOGY OF SIGNIFICANT EVENTS

The following chronology describes significant events in CBC’s history, including: examinations
conducted, major problems identified, and enforcement actions taken by the FDIC and the State of
Connecticut Department of Banking.


7/23/64                   Bank is established as The Woodbridge Bank and Trust Company and
                          becomes FDIC-insured.


3/15/78                   The bank’s name is changed to Amity Bank Corp.


8/10/90                   FDIC examination resulted in a CAMEL “4” rating.


7/9/91                    Bank management stipulated to a Cease and Desist (C&D) Order regarding
                          bank operations. The Order was issued to address the unsatisfactory
                          conditions disclosed during the August 10, 1990 FDIC examination. The
                          provisions required qualified management, sufficient reserve for loan losses,
                          minimum level of Tier 1 Capital, a plan to reduce classified assets, improved
                          documentation of Board meeting minutes, revised loan policy, establishment
                          of a profit plan to improve earnings, regulator approval of dividends, and
                          correction of violations.


12/16/91                  FDIC and Connecticut Department of Banking (State) examination resulted in
                          a CAMEL and Composite rating of 5-5-3-5-3/5.


2/29/92                   With Amity Bank on the verge of failure, a private investor acquired
                          approximately 80 percent ownership interest in the bank for $5 million. Bank
                          assets total approximately $151 million. The private investor becomes
                          Chairman of the Board of Directors. He brings in a new president, chief
                          financial officer, and Board of Directors.


1/11/93                   The bank’s name was changed to Connecticut Bank of Commerce.




                                                  54
9/13/93    FDIC examination resulted in a CAMEL and Composite rating of 5-5-4-5-3/5.
           Failure was inevitable absent a substantial and immediate infusion of capital.
           CBC was placed in a 90-day Prompt Corrective Action (PCA) resolution
           status with an expected bank closing date of March 4, 1994. A “critically
           undercapitalized” PCA category is reflected. Total assets are $140 million.


10/93      Two bank presidents were hired and resigned within the preceding 8 months.
           One president stated that the Chairman impeded his efforts to operate the
           bank.


11/18/93   New president announced as Chief Executive Officer and Director.


12/16/93   Bank management stipulated to a second C&D Order regarding management
           performance. The provisions required a revised conflict of interest policy, a
           study/audit of institution-affiliated parties, establishment and retention of
           qualified management, and correction of all violations.


3/24/94    The Chairman injected approximately $5.5 million averting bank closure.


7/25/94    FDIC examination resulted in a CAMEL and Composite rating of 5-5-3-5-3/5.
           CBC enters into a new business, a lease-financing program, assisted by a new
           affiliate, EQ Corporation. This program provided a needed increase in
           earnings but the risk was high. Total assets are $104 million.


9/25/95    FDIC examination resulted in a CAMEL and Composite rating of 5-5-3-5-3/5.
           Asset quality remained the largest detriment to improvement in overall
           condition. Total assets are $84 million.


10/15/95   An additional $400,000 in capital received from the Chairman. A “significantly
           undercapitalized” PCA category is reflected.




                                   55
4/15/96    A State examination resulted in a CAMEL and Composite rating of 5-5-3-5-
           3/5. Concentrations of Credit to Tier 1 Capital is significantly high at 434
           percent. Lease financing through EQ Corporation represents a 247 percent
           concentration.

           The president of 3 years resigned. The State noted that he cited personal
           reasons for his resignation. State believes it was due to frustration over the
           Chairman not putting enough capital into the bank to enable him to sell off the
           non-performing assets and take the bank in the direction he wanted it to go.
           New president joins bank 2 months later.


8/1/96     New Executive Vice President and Chief Lending Officer joins the bank.


12/30/96   FDIC examination resulted in an improved CAMEL and Composite rating of
           4-4-3-5-2/4. Capital levels benefited from a capital infusion of privately
           owned stock, valued at $2,420,000, contributed by the Chairman. Capital
           levels achieved regulatory guidelines but not in compliance with the C&D
           Order. An “adequately capitalized” PCA category reflects improvement.
           Management stresses community banking; however, most new activities
           are conducted outside of the local area, leading examiners to question
           management’s long-term goals and the direction of the bank. Both C&D
           Orders remain outstanding despite objections from bank for release in light
           of improved capital status. Total assets are $82 million.


9/30/97    The bank’s audited financial statements reflect the residual value of its interest
           in four Boeing 727 cargo aircraft at $4.5 million.


10/20/97   Concurrent FDIC and State examination assigned a CAMELS and Composite
           rating of 3-4-3-4-3-2/4. The bank began a new business in the form of out-of-
           area Accounts Receivable Financing. This program was not addressed in the
           bank’s loan policy and constituted 259 percent of the bank’s equity capital and
           reserves. A number of these loans appeared to exceed Connecticut legal
           lending limits. An “adequately capitalized” PCA capital category remains.


9/3/98     Executive Vice President and Chief Lending Officer promoted to Chief
           Operating Officer.




                                    56
10/26/98   Concurrent FDIC and State examination resulted in a CAMELS and
           Composite rating of 3-4-3-3-2-2/3. Modest improvement in overall condition.
           An “adequately capitalized” PCA capital category remains. Insufficient
           monitoring system for Accounts Receivable Financing remains. Adversely
           classified assets in the Accounts Receivable Financing area are high.


3/23/99    Memorandum of Understanding (MOU) replaced the two outstanding C&Ds.
           The MOU mainly focused on improving asset quality. Additionally, a capital
           restoration plan called for a specific capital level higher than PCA
           requirement; annual review of conflicts of interest policy; retention of
           qualified management; informing regulators of consideration of new lines of
           business; development of policies and procedures for new business; regulator
           approval of new business; and prior approval of the Board before executing
           new business.


4/23/99    CBC entered into a Purchase and Assumption agreement to purchase substantially
           all of the $250 million assets and assume the deposits and certain liabilities
           of MTB Bank.


8/4/99     CBC filed an application with the FDIC to acquire MTB Bank. The
           application provided that concurrent with the merger, the Chairman of the
           Board would inject $20 million into the bank.


8/30/99    FDIC Community Reinvestment Act (CRA) examination revealed that the
           bank’s niche of focusing on lease finance receivables led to lending outside
           of the bank's assessment areas. Examiners initially recommended a “Needs
           to Improve,” rating; however, after much discussion between bank
           management, FDIC, and State officials, the rating was changed to
           “Satisfactory,” based on performance context as stated in FDIC Regulation
           345.21(b). The FDIC recommended a Board Resolution to ensure
           necessary efforts would be made to improve the bank’s CRA performance.
           CBC’s Board of Directors adopted the resolution.


10/20/99   The Board of Directors approved a $1.7 million investment in foreign
           currency futures options without ensuring that management performed
           sufficient due diligence.




                                   57
12/27/99     Joint FDIC and State examination resulted in a CAMELS rating of
             2-3-3-3-2-2/3. Management took steps to meet the provisions of the MOU
             but the volume of adverse classifications needed to be reduced. Eight
             relationships of concentrations of credit represented 491 percent of Tier 1
             Capital. Total assets of the bank were $99 million.


2/25/00      The FDIC approved the Purchase and Assumption transaction to acquire
             MTB Bank.


3/22-29/00   At the direction of the Chairman, the bank funded approximately $20 million
             in loans when in the prior 2 months, loans averaged less than $5 million each
             month. Examiners discovered later that the proceeds of these loans were used
             to fund the acquisition of MTB Bank.


3/31/00      Acquisition of MTB Bank occurred.



6/00         Board of Directors approved over $11 million in loans to entities controlled
             by the Chairman, his children, and/or his business associates. Most of
             these loans were used to purchase non-performing loans from the bank,
             giving the appearance that a third party was buying the loans without
             financing from the bank.


9/11/00      Joint FDIC and State visitation to assess the bank’s progress with the
             purchase of assets and assumption of liabilities of MTB Bank. Integration of
             the two institutions remained a work in progress.


3/5/01       A joint FDIC and State examination revealed that inadequate Board and senior
             management oversight contributed to the deterioration of the bank’s overall
             condition. CAMELS and Composite rating is 3-4-4-3-3-3/4. A “well
             capitalized” PCA capital category shows improvement. Examiners question
             suspicious and unusual loan activity that took place the week before the merger
             with MTB Bank.


6/21/01      A 10(c) investigation began to research whether there was evidence of the
             Chairman orchestrating the transactions to obtain some or all of the $20 million
             capital injection required as a condition of the merger.




                                     58
12/10/01   C&D Order took effect outlining the significant deficiencies that needed to be
           corrected and addressed from the March 5, 2001 examination. Such
           deficiencies included credit underwriting and loan administration weaknesses;
           inappropriate risk rating for the allowance of loan losses; unrealistic budget and
           strategic plan; and apparent violations. Management and the Board of
           Directors failed to fully address the majority of the Order provisions.


2/8/02     Arthur Andersen, LLP expressed an unqualified opinion on the financial
           statements as of December 31, 2001 and 2000.


4/01/02    A joint FDIC and State examination began as of April 1, 2002. The bank was
           closed before the examination report was finalized. Tangible equity capital to
           total assets after adjusting for preliminary results of the examination showed
           negative capital levels. A “critically undercapitalized” PCA capital category
           reflects a downgrade.



6/23/02    At a special Sunday night meeting, the Board of Directors approved
           $16,796,082 in loans. The Monday after the board meeting, $12,677,894 was
           wired to various institutions.

6/25/02    The FDIC determined that the continued employment of the Chairman and
           President would not materially strengthen the Bank’s ability to become
           adequately capitalized. Prompt Corrective Action Directive ordering dismissal
           of the Chairman and President issued.


6/26/02    The Commissioner of the Connecticut Department of Banking ordered CBC
           closed and appointed the FDIC as receiver.

6/28/02    The FDIC as receiver is able to recover payments made on $11.5 million of the
           “Sunday night” loans.




                                    59
                            APPENDIX IV
CORPORATION COMMENTS




                       60
61
62
63
64
65
66
67
68
69
70
71
                                             APPENDIX V
CONNECTICUT DEPARTMENT OF BANKING RESPONSE




                             72
73
                                                                                                                           APPENDIX VI

                                     MANAGEMENT RESPONSES TO RECOMMENDATIONS
This table presents the management responses that have been made on recommendations in our report and the status of recommendations
as of the date of report issuance. The information in this table is based on management’s written response to our report.
                                                                                                                                 Open
 Rec.                                                              Expected          Monetary   Resolveda :   Dispositionedb:     or
Number     Corrective Action: Taken or Planned/Status           Completion Date      Benefits   Yes or No       Yes or No       Closedc
          DSC concurs with the recommendation and will
          continue to consider requiring prior notice of all
          material transactions when it is deemed necessary
          and beneficial. This topic will be addressed
          during the periodic teleconferences DSC currently
          has with each regional office to discuss
   1      enforcement actions in process. The draft report      December 31, 2003      N/A         Yes              No           Open
          and DSC’s response will also be discussed at the
          DSC senior management meeting during the
          week of March 10, 2003 with all of DSC regional
          directors.
          DSC concurs with the recommendation and will
          review the Case Managers Procedures Manual
          to determine whether more guidance regarding
   2      the assessment of management during the               September 30, 2003     N/A         Yes              No           Open
          review of mergers and acquisitions should be
          added.
          DSC did not agree with this recommendation;
          however, it will review the Case Managers
          Procedures Manual, and consider adding or
          clarifying the guidance related to the review
          and/or validation of funding sources in
   3      connection with mergers and change of control         September 30, 2003     N/A         Yes              No           Open
          notices. Also, this report will be discussed at the
          senior management meeting with all DSC
          regional directors during the week of March 10,
          2003.

                                                                        74
              DSC concurs with the recommendation and
              believes the recommendation reflects standard,
              longstanding examination practices within the
      4       Division. Guidance issued to examiners in 2001               March 31, 2003         N/A            Yes               No                  Open
              and updated in 2003 will be provided to the
              OIG.
              DSC concurs with the recommendation and
              believes that current guidance and the
              distribution of the OIG Report provides FDIC
              staff with sufficient direction and emphasis on
      5       the issues raised in this recommendation. This          December 31, 2003           N/A            Yes               No                  Open
              report will be discussed at the next DSC senior
              management meeting in March 2003.
a
    Resolved – (1) Management concurs with the recommendation and the planned corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation but planned alternative action is acceptable to the OIG.
               (3) Management agrees to the OIG monetary benefits or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
               as management provides an amount.
b
  Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved
through implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
recommendation.
c
    Once the OIG dispositions the recommendation, it can then be closed.




                                                                                 75
                                                                            APPENDIX VII
GLOSSARY

Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) to three categories:
                    • Substandard,
                    • Doubtful, and
                    • Loss

Call Report         An institution’s quarterly Consolidated Report of Condition and
                    Income which contains a balance sheet, income statement, and other
                    detailed financial schedules containing information about the institution.
CAMELS Rating       CAMELS (an acronym for capital, asset quality, management, earnings,
or Composite        liquidity, and sensitivity to market risk) represents the overall rating given
Rating              to a bank based on the six components above. A rating of “1” through “5”
                    is given, with “1” having the least regulatory concern and “5” having the
                    greatest concern. A description on the graduations utilized in conjunction
                    with the performance ratings is as follows:

                    Rating “1”        Indicates strong performance, significantly higher than
                                      average.
                    Rating “2”        Reflects satisfactory performance, performance which
                                      is average or above: this includes performance that
                                      adequately provides for the safe and sound operation of
                                      the bank.
                    Rating “3”        Represents performance that is flawed to some degree
                                      and as such is considered fair. It is neither satisfactory
                                      nor unsatisfactory but is characterized by performance
                                      that is below-average quality.
                    Rating “4”        Refers to marginal performance, significantly below
                                      average. If left unchecked, such performance might
                                      evolve into weaknesses or conditions that could
                                      threaten the viability of the institution.
                    Rating “5”        Considered unsatisfactory; performance that is critically
                                      deficient and in need of immediate remedial attention.
                                      Such performance, by itself or in combination with
                                      other weaknesses, threatens the viability of the
                                      institution.
Cease and Desist    A formal enforcement action issued by financial institution regulators to
Order (C&D)         a bank or affiliated party to stop an unsafe or unsound practice or
                    violation. A C&D may be terminated when the bank’s condition has
                    significantly improved and the action is no longer needed or the bank has
                    materially complied with its terms.




                                              76
Concentration        A concentration is a significantly large volume of economically related
                     assets that an institution has advanced or committed to one person,
                     entity, or affiliated group. These assets may in the aggregate present a
                     substantial risk to the safety and soundness of the institution. A
                     concentrations schedule is one of the pages that may be included in the
                     Report of Examination. As a general rule, concentrations are listed by
                     category according to their aggregate total and are reflected as a
                     percentage of Tier 1 Capital.
Division of          The division of the FDIC that plans and handles the resolution and
Resolutions and      liquidation of failed FDIC-insured institutions.
Receiverships
(DRR)
Executive Officer    Executive officer of a company or bank means a person who
                     participates or has authority to participate (other than in the capacity of a
                     director) in major policymaking functions of the company or bank,
                     whether or not: the officer has an official title; the title designates the
                     officer an assistant; or the officer is serving without salary or other
                     compensation.

                     The chairman of the board, the president, every vice president, the
                     cashier, the secretary, and the treasurer of a company or bank are
                     considered executive officers, unless the officer is excluded, by
                     resolution of the board of directors or by the bylaws of the bank or
                     company, from participation (other than in the capacity of a director) in
                     major policymaking functions of the bank or company, and the officer
                     does not actually participate therein.
                     [Codified to 12 C.F.R. § 215.2(e)(1)]
Insider              A person who is or is proposed to be a director, officer, organizer, or
                     incorporator of an applicant; a shareholder who directly or indirectly
                     controls 10 percent or more of any class of the applicant's outstanding
                     voting stock; or the associates or interests of any such person. Institution-
                     affiliated party shall have the same meaning as provided in section 3(u) of
                     the Act (12 U.S.C. 1813(u)). [Codified to 12 C.F.R. § 303.2]
Loan Loss Reserve    Federally insured depository institutions must maintain a Loan Loss
also called          Reserve level that is adequate to absorb the estimated credit losses
Allowance for Loan   associated with the loan and lease portfolio (including all binding
and Lease Losses     commitments to lend). To the extent not provided for in a separate
(ALLL)               liability account, the loan loss reserve should also be sufficient to absorb
                     estimated credit losses associated with off-balance sheet credit instruments
                     such as standby letters of credit.




                                              77
Principal              A person that directly or indirectly, or acting through or in concert with
Shareholder            one or more person, owns, controls, or has the power to vote more than
                       10 percent of any class of voting securities of a member bank or
                       company. Shares owned or controlled by a member of an individual's
                       immediate family are considered to be held by the individual.
                       [Codified to 12 C.F.R. § 215.2]
Prompt Corrective      Part 325 of the FDIC Rules and Regulations, 12 CFR §325.101, et. seq,
Action (PCA)           implements section 38 of the FDI Act, 12 U.S.C. §1831(o), by
                       establishing a framework for taking prompt supervisory actions against
                       insured nonmember banks that are not adequately capitalized. The
                       following terms are used to describe capital adequacy:

                       • Well Capitalized
                       • Adequately Capitalized
                       • Undercapitalized
                       • Significantly Undercapitalized
                       • Critically Undercapitalized
Red Flags              A warning sign that something may not be right. In this report it refers
                       to irregular or unusual activity at the bank.
Regulation O           The Federal Reserve regulation that restricts the amount of credit banks
                       may extend to their own executive officers, directors, and principal
                       shareholders.
Section 10(b) of the   Section 10(b), 12 U.S.C. §1820(b) lists the power of the Board of
FDI Act                Directors to appoint examiners to conduct regular and special
                       examinations of financial institutions. Also, examiners shall have the
                       power, on behalf of the Corporation, to make such examinations of the
                       affairs of any affiliate of any depository institution as may be necessary
                       to disclose fully the relationship between the institution and its affiliate
                       and the effect of the relationship on the institution.
Section 10(c) of the   Section 10(c) of the FDI Act, 12 U.S.C. §1820(c), authorizes the
FDI Act                representative of an appropriate Federal banking agency to administer
                       oaths and affirmations, and to examine and take and preserve testimony
                       under oath as to any matter in respect to the affairs or ownership of any
                       such bank, institution, or affiliate.
Section 23(a)          Section 23(a) of the Banking Affiliates Act of 1982, 12 U.S.C. §371(c),
                       establishes restrictions on transactions between financial institutions and
                       their affiliates. These include restrictions on the dollar amount involved
                       in the transactions and establishes collateral requirements for certain
                       transactions with affiliates.




                                                78
Section 23(b)     Section 23(b) of the Banking Affiliates Act of 1982, 12 U.S.C.
                  §371(c)-1, places restrictions on transactions with affiliates. It requires
                  transactions to be on the same terms and standards or at least as
                  favorable as those prevailing for comparable transactions with a
                  nonaffiliate. In the absence of comparable transactions, they must be on
                  terms and circumstances that in good faith would be offered to or apply
                  to nonaffiliated companies.
Tier 1 (Core)     Defined in Part 325 of the FDIC Rules and Regulations,
Capital           12 C.F.R. §325.2 (A), and is the sum of :
                  • Common stockholder’s equity (common stock and related surplus,
                      undivided profits, disclosed capital reserves, foreign currency
                      translation adjustments, less net unrealized losses on available-for-
                      sale securities with readily determinable market values);
                  • Non-cumulative perpetual preferred stock;
                  • Minority interest in consolidated subsidiaries;
                      Minus
                  • Certain intangible assets;
                  • Identified losses;
                  • Investments in securities subsidiaries subject to section 337.4; and
                  • Deferred tax assets in excess of the limit set forth in section
                      325.5(g).
Tier 1 Leverage   Tier 1 Capital divided by total assets.
Capital Ratio
Tier 2            Tier 2 Capital is defined in Part 325 of the FDIC Rules and Regulations,
(Supplemental)    12 CFR §325, Appendix A., I.A.2, and generally consists of:
Capital           • Allowances for loan and lease losses, up to a maximum of 1.25
                     percent of risk-weighted assets;
                  • Cumulative perpetual preferred stock, long-term preferred stock and
                      related surplus;
                  • Perpetual preferred stock (dividend is reset periodically);
                  • Hybrid capital instruments;
                  • Term subordinated debt and intermediate-term preferred stock; and
                  • Eligible net unrealized holding gains on equity securities.




                                          79
                                                                                        APPENDIX VIII


PREVIOUSLY ISSUED MATERIAL LOSS REVIEW REPORTS*


•   The Failure of Pacific Thrift and Loan Company, Woodland Hills, California
    (Issue date: June 7, 2000)

•   The Failure of BestBank, Boulder, Colorado
    (Issue date: January 22, 1999)

•   The Failure of First Trust Bank, Ontario, California
    (Issue date: May 16, 1997)

•   The Failure of the Bank of Newport, Newport Beach, California
    (Issue date: October 8, 1996)

•   The Failure of Pacific Heritage Bank, Torrance, California
    (Issue date: January 26, 1996)

•   The Failure of The Bank of Hartford, Hartford, Connecticut
    (Issue date: December 1, 1995)

•   The Failure of The Bank of San Pedro, San Pedro, California
    (Issue date: December 21, 1994)

•   The Failure of The Bank of San Diego, San Diego, California
    (Issue date: April 29, 1994)



*   On February 14, 2003, our office began a material loss review of Southern Pacific Bank, Torrance, California,
    which failed February 7, 2003 causing an estimated loss of $134.5 million to the Bank Insurance Fund.




                                                       80
